<html>
<title> - FARM TO FORK: PARTNERSHIPS TO PROTECT THE FOOD YOU EAT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
         FARM TO FORK: PARTNERSHIPS TO PROTECT THE FOOD YOU EAT

=======================================================================

                             FIELD HEARING

                               before the

                      SUBCOMMITTEE ON MANAGEMENT,
                     INVESTIGATIONS, AND OVERSIGHT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 9, 2007

                               __________

                           Serial No. 110-55

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                  U.S. GOVERNMENT PRINTING OFFICE
48-929                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009
                               __________


                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado

        Jessica Herra-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

       SUBCOMMITTEE ON MANAGEMENT, INVESTIGATIONS, AND OVERSIGHT

             CHRISTOPHER P. CARNEY, Pennsylvania, Chairman

PETER A. DeFAZIO, Oregon             MIKE ROGERS, Alabama
YVETTE D. CLARKE, New York           TOM DAVIS, Virginia
ED PERLMUTTER, Colorado              MICHAEL T. McCAUL, Texas
BENNIE G. THOMPSON, Mississippi (Ex  PETER T. KING, New York (Ex 
Officio)                             Officio)

                    Jeff Greene, Director & Counsel

                         Brian Turbyfill, Clerk

                    Michael Russell, Senior Counsel

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania, and Chairman, Subcommittee on 
  Management, Investigations, and Oversight......................     1
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Subcommittee on 
  Management, Investigations, and Oversight......................     2

                               WITNESSES

Mr. T. David Filson, Coordinator, Emergency Preparedness and 
  Response, Partnership Expansion Leader, Penn State Cooperative 
  Extension:
  Oral Statement.................................................     4
  Prepared Statement.............................................     8
Dr. Frederic J. Hoerr, Professor, College of Veterinary Medicine, 
  Auburn University:
  Oral Statement.................................................    13
  Prepared Statement.............................................    17
Dr. Thomas McGinn, Director, Veterinary and Agriculture Security, 
  Office of Health Affairs, U.S. Department of Homeland Security:
  Oral Statement.................................................    20
  Prepared Statement.............................................    22


         FARM TO FORK: PARTNERSHIPS TO PROTECT THE FOOD YOU EAT

                              ----------                              


                          MONDAY, JULY 9, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
                 Subcommittee on Management, Investigation,
                                             and Oversight,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 1:30 p.m., in 
Room 1 of the Wyoming County Courthouse, Tunkhannock, 
Pennsylvania, Hon. Christopher P. Carney [Chairman of the 
Subcommittee] presiding.
    Members present: Representatives Carney and Rogers.
    Mr. Carney. The Subcommittee will come to order. The 
Subcommittee is meeting today to receive testimony on Farm to 
Fork: Partnerships to Protect the Food You Eat. First, I would 
like to thank everybody for joining us here today in our neck 
of the woods. It is not every day that Tunkhannock, let alone 
Northeast Pennsylvania, gets to host a Congressional Hearing.
    I would like to recognize a few people in the audience. 
Stark Bartron, County Commissioner, Mayor Norm Ball, Tony 
Litwin, County Commissioner, friends and neighbors from the 
area. I appreciate you showing up today, it is very nice to see 
you. Thanks also goes to the Subcommittee's ranking member, Mr. 
Mike Rogers, for taking a couple of days out of his busy 4th of 
July schedule to travel all the way up here from Alabama. 
Hopefully, the weather is very reminiscent of his home back in 
Alabama. And finally I would like to thank our friends at 
Cargill at Taylor Packing for allowing us to come up this 
morning for a visit. We had a very enlightening trip, tour of 
the plant.
    And we are here today to examine how the Department of 
Homeland Security will work with its partners at all levels of 
government, as well as with the private sector in the event of 
a large-scale food contamination or agro-terror event. 
Agriculture is one of Pennsylvania's leading industries. 
According to the most recent data complied by the State 
Department of Agriculture, 59,000 farm families farm over 7.7 
million acres in this state alone. And it is not just farms 
that contribute to our agriculture industry, there are over 
2,000 food producers, producing businesses, scattered across 
the state that create goods for market or prepare food stuffs 
for the next steps toward a finished product. And Pennsylvania 
is not alone, as we understand. Many states rely upon 
agriculture as a major piece of their economy. Most consumers 
take for granted what it takes to keep bringing food to their 
tables. Aside from just planting, farming and harvesting, the 
industry produces, packs and ships to market. Not to mention 
safety, which is an integral part of every step of the process. 
They do all these things. While domestic sources account for 
the vast majority of what appears on our plates at every meal, 
America imports roughly 15 percent of what we eat. Food and 
agriculture safety are paramount to not only our health but to 
our economy as well. We have already seen relatively small 
scale food scares be it dirty scallions, tainted spinach or E. 
Coli outbreaks, etcetera. But if we are facing a truly wide-
spread event, let alone an international one, this nation would 
be crippled.
    In Pennsylvania alone, production, agriculture and related 
agribusiness contributes over $40 billion to our economy 
annually. Putting aside the economic damages, responding to 
potential health issues would also be very daunting. In the 
event of a large-scale food safety event, we cannot have mass 
confusion. Clear leadership is a must. It is up to the 
Department of Homeland Security to coordinate any crisis 
response should our Nation's agriculture industry come under 
attack while respecting the expertise of other federal agencies 
and state and local government as well.
    As we have seen in other scenarios, some agencies that 
should have been listening to DHS, treat it more like the new 
kid on the block, which hindered its ability to operate 
effectively. DHS has responsibility of coordinating response, 
disseminating information and allocating needed resources. It 
only makes sense that if there were an agro-terror or food 
contamination event, DHS would coordinate, not only with state 
and local governments, but with the US Department of 
Agriculture, the US Department of Health and Human Services and 
the Food and Drug Administration as well for more focused 
expertise.
    Homeland Security has also established partnerships with 
industry as well as we saw with Taylor Packing this morning or 
Cargill this morning. The federal government is great at large-
scale planning and response but private industry is much better 
suited to police itself for food contamination and from agro-
terror.
    Long before DHS stood up today, Taylor Packing, which, of 
course, is now Cargill that we toured, established an uphill 
standard for excellence in food handling. It is vital that our 
farmers and small businesses continue to do everything they can 
to ensure the safety and quality of our food. Ensuring that 
robust security and food handling procedures are in place and 
in practice at every agro-business is essential to preventing 
an economically devastating agro event.
    The Department of Homeland Security, the state and local 
governments have done a good job in preventing a food 
catastrophe thus far and I am looking forward to hearing from 
Mr. Filson and Dr. Hoerr to hear their thoughts on how we can 
better prepare to prevent any agro-terror event.
    The Chair now recognizes the ranking member from the 
Subcommittee, the gentleman from Alabama, Mr. Rogers, for an 
opening statement.
    Mr. Rogers. I want to thank you, Chairman Carney. It is 
good to be here with you in Wyoming County, Pennsylvania and 
have a chance to find out how we can better help protect our 
food supply. I want to thank the witnesses for being with us 
and particularly Dr. Hoerr from Auburn coming up. He is from 
the School of Veterinary Medicine at Auburn University and is a 
leader, a world leader, in avian flu. I want to thank him.
    East Alabama is similar to northern Pennsylvania in its 
support for agriculture. Here, dairy farming is prevalent and 
in my home area, poultry farming is prevalent. The annual 
receipts for farm and poultry products in Alabama are about $5 
billion. Of this total, approximately 47 percent is in the 
production of broiler chickens, which is Alabama's number one 
agricultural commodity. In fact, Alabama rates number three in 
the county for poultry production marketing over one billion 
chickens annually. An outbreak of highly contagious avian flu 
could be devastating to the economy of my home state, as well 
as our nation.
    And if such an outbreak among poultry and wild birds is not 
properly contained and controlled, we could increase the risk 
that this disease will find its way into the human population. 
An outbreak of this type is one reason why my constituents in 
Alabama, like the folks here in northern Pennsylvania, want to 
know what is being done in this area.
    Today we will hear from the chief veterinarian from the 
Department of Homeland Security. Of special interest is how DHS 
coordinates with the USDA and state agencies to protect our 
food supply. We also look forward to hearing from our witnesses 
about what steps are being taken and what additional steps 
should be taken to help prevent an act of agro-terrorism and 
the spread of foreign animal diseases.
    I am sure the information we learn today will be helpful in 
our work on the Homeland Security Committee, as well as the 
House Agriculture Committee on which I am also a member.
    And I want to thank Chairman Carney again for inviting me 
up here.
    Mr. Carney. I want to thank Mr. Rogers for taking the time. 
It really is nice to have a good bipartisan committee. Mr. 
Rogers and I were very close together in a number of issues and 
this is something we are both very concerned with.
    I want to welcome the witnesses today. Our first witness is 
Dr. Tom McGinn. Dr. McGinn has had a background in dairy and 
beef farming before going to veterinary college, graduating 
from North Carolina State University in 1987. As an assistant 
state veterinarian to North Carolina, in 1993, he pioneered the 
use of geographic information systems for animal and human 
health management. He is currently the director of veterinary 
and agricultural security for the office of the chief medical 
officer of the Department of Homeland Security. Our second 
witness is Mr. David Filson. Mr. Filson is the emergency 
preparedness and response coordinator for the Penn State 
Cooperative Extension and is responsible for ensuring that it 
is prepared to play a key role in the event of an agricultural 
emergency. He also serves as the partnership leader and is a 
liaison to state and federal agencies and other organizations. 
In that capacity, he is responsible for building, maintaining 
and enhancing professional connections and funding partnerships 
with a variety of agencies and organizations. He is a Penn 
State alumnus, having received his MS and BS from the College 
of Agricultural Sciences. Welcome.
    Our final witness is Dr. Frederic Hoerr. Dr. Hoerr is a 
professor at Auburn University, College of Veterinary Medicine. 
He also serves as director of the Alabama Diagnostic 
Laboratories. The TBS State Diagnostic Laboratory is a member 
of the National Animal Health Laboratory Network and conducts 
surveillance on foreign animal diseases, including avian 
influenza and Exotic Newcastle Disease. I am not sure what that 
is, please enlighten us. Dr. Hoerr supervises eight 
veterinarians who provide diagnostic services for livestock, 
poultry, wildlife and companion animals. Dr. Hoerr received his 
DVM and his MS and a Ph.D. from Purdue University and has 
veterinary specialty certifications from the American College 
of Poultry Veterinarians and the American College of Veterinary 
Pathologists.
    Without objections, the witnesses' full statements will be 
inserted into the record. Also, asking the audience's consent 
that we have the report, who is in charge, Dr. Filson, entered 
into the record. Without objection, so ordered.
    I now ask each witness to summarize their statement for 
five or so minutes, whatever it takes, beginning with Dr. 
McGinn. Thank you.

   STATEMENT OF DR. THOMAS MCGINN, DIRECTOR, VETERINARY AND 
 AGRICULTURE SECURITY, OFFICE OF HEALTH AFFAIRS, DEPARTMENT OF 
                       HOMELAND SECURITY

    Dr. McGinn. I appreciate the opportunity, Mr. Chairman, to 
be with you this afternoon and Congressman Rogers as well. 
Thank you for the opportunity to be here in Wyoming County. 
Wyoming means extensive meadows and Tunkhannock means small 
streams, so we must be in the area of great agricultural 
capabilities.
    You have asked me to report to you today on the progress 
being made to prepare for, to prevent and to respond and 
recover to acts of bioterrorism, agroterrorism, outbreaks of 
contagious diseases and natural disasters that would affect our 
food system.
    A little bit of my background is 25 years as a dairyman, as 
a cattleman and as a veterinarian. I have worked extensively 
with contagious infectious diseases and what I found is that 
turning to the industries, like you mentioned earlier in Taylor 
Packing earlier this morning, gives us the ability to 
understand how they actually resolve problems and actually have 
the ability to contribute. So this is really a public/private 
partnership that we are invested in in terms of being able to 
protect the food supply in our country.
    I have also been a deputy commander for one of the VMAT 
teams, veterinary medical assistance teams, and the founder of 
the State Animal Response Teams, SART, in North Carolina and I 
will come back to that as it relates to Pennsylvania in just a 
moment. And had the opportunity to work in many disasters in 
those capacities, as well as you mentioned now with Homeland 
Security.
    My history with Pennsylvania, I have a great love for 
Pennsylvania. I came here about five years ago, was invited by 
the state veterinarian to talk about how to prepare for and 
respond to disasters in Pennsylvania. And at that point in 
time, presented on what North Carolina was doing because I was 
there in North Carolina and then also encouraged Pennsylvania 
to develop a State Animal Response Team as well.
    Part of what I understood when I was in North Carolina was 
that emergency management and the capability to respond to an 
agricultural disaster begins at the county level and then at 
the state level. It begins with the private industry in concert 
with the local folks and the state folks having the ability to 
respond for two reasons. One, the response could be in multiple 
counties and multiple states at the same time particularly if 
it is of an agricultural nature of a Homeland Security impact. 
And so the ability of counties and states to work with their 
industry to respond quickly and effectively is the kind of 
needs that we have just out of the gate to be able to respond 
to a disaster.
    We also have to develop the ability to have seamless 
response, seamless diagnostics and seamless recovery 
capabilities as it relates to any sort of emergency.
    I am proud to be here to renew my commitments to the State 
of Pennsylvania from within the Department of Homeland Security 
because what we realize is the ability for Pennsylvania to have 
secure agricultural capability is the same ability that we have 
throughout our entire country.
    I am very proud to point to the $40-plus billion that 
Pennsylvania contributes to the food and ag vitality of this 
state and thereby to that of the nation.
    Pennsylvania also has the third largest port in the nation 
as it relates to agriculture and the first largest port as it 
relates to fruits in the entire nation. So you can see you have 
a very important critical component of the infrastructure that 
needs to be protected.
    You have 58,000 farmers and you contribute $14.5 billion 
through your restaurant industries as listed in 2005. You have 
an excellent tripartite relationship within the diagnostic 
laboratory system between your Department of Agriculture, Penn 
State and the University of Pennsylvania.
    You have a very successful food program that is emulated 
throughout the entire country in the way that you--your 
labeling of your food, Manufacturers Registry Programs.
    You have 60 of your 67 counties with county animal response 
capability. That is a model for the rest of the country. It is 
a great testimony and a great example of how other states can 
build their capability to be able to respond. Again, we have to 
have that response capability for one county to be able to help 
another county and for states to be able to help states in 
order for our Nation's food to be secure.
    You have also been successful in Pennsylvania to obtain the 
Homeland Security dollars, a little over a million dollars per 
year to be invested into this vital component of your economy. 
So being able to demonstrate the value of getting those 
Homeland Security dollars to protect your food and agriculture 
is a very important process and it is also a great example to 
the other states of ways in which they can then emulate what 
Pennsylvania is doing as well.
    The mission of the Department of Homeland Security, and I 
have brought and I will leave these with everyone as well, are 
basically five goals within Homeland Security. We are to 
protect the nation against dangerous people, against dangerous 
goods, protect the critical infrastructure, have a nimble and 
effective emergency response system and a culture of 
preparedness and strengthen and unify the operations in 
management within DHS. And we have discussed how important 
management is to this Subcommittee.
    The goals within the Office of Health Affairs is to serve 
as a principle medical and veterinary authority to the 
Department of Homeland Security. We actually run the biodefense 
and agrodefense activities within the Department of Homeland 
Security. We do the internal and external coordination of the 
programs and we also provide the point of contact for state, 
federal and local capabilities, as well as the private sector 
on veterinary and public health issues.
    The first person that the chief medical officer within the 
Office of Health Affairs hired was a veterinarian. This is the 
emphasis that our office has placed on animal health as a 
component of human health and the one medicine approach that we 
see as it relates to health that is vital to health of the 
communities and of the states. We now hired three veterinarians 
into the Office of Health Affairs and so we are very thankful 
to be able to start building this capability within animal 
health in the Department of Homeland Security.
    The goals for this office, the Office of Food, Animal and 
Veterinary Medicine, are as follows. To stand up this office, 
to build this capability. To build a strategic plan for food, 
agriculture and veterinary medicine. We currently have not yet 
developed this sort of strategic planning and this is one of 
the first goals that I have as the director of this office. We 
also need to be able to give the accountability for our 
directives within HSPD-9 and to be able to answer the questions 
that are related to the GAO and the IG reports and then we got 
to be able to work with the different--coordinating with the 
different agencies right down to the private sector in our 
abilities to execute what is necessary for the protection of 
our food supply.
    The secretary has also given our office the lead on food, 
agriculture and veterinary issues, as well as Homeland Security 
Presidential Directive 9.
    Within Homeland Security Presidential Directive 9 there are 
19 tasks. Seventeen of these DHS has responsibilities for. Five 
of those 17 are in a supportive role, for example, to the 
national veterinary stockpile. Five we co-lead and those are 
vulnerability assessments, border protection, specialized 
training, counter measures developments and secure biolabs. We 
also have seven that we are responsible for in a leadership 
capacity. They are in the area of intelligence, biothreat 
assessment, adequate local response capabilities and adequate 
planning, coordinated planning. In the area of information 
sharing, particularly with the private sector, and then the 
Centers of Excellence, of which there are two. One is centered 
around the University of Minnesota and that is in post-harvest 
and the other one is centered around the University of Texas, A 
& M in pre-harvest. It is these coordinated plans and this 
ability to rapidly respond in an inner-agency, integrated 
manner is the kind of capability that you are looking for from 
the Department of Homeland Security.
    We also have over 30 programs with responsibilities in food 
and agriculture and veterinary medicine. Thirty programs. These 
are divided into basically five directives, science and 
technology, FEMA, customs and border, our Office of Health 
Affairs and intelligence and analysis. Within science and 
technology, let me highlight just a couple of programs which 
are important to you. One is in the building of additional 
counter-measures, such as the latest vaccines and diagnostic 
capabilities. Another in the management of the Plum Island 
Diagnostic Facility, which we coordinate with USDA. There are 
roughly 500 routine shipments to Plum each year of potential 
foreign animal diseases and is important to facilities like the 
one we visited this morning, Taylor Packing. Those are 
diagnosed in a very rapid and accurate manner to maintain their 
ability to provide the food that we all enjoy.
    The biothreat assessment capabilities and then we mentioned 
the Center of Excellences. They have tremendous relationships, 
these Centers of Excellence, with the private sector and they 
are vital to our ability to protect the homeland since over 70 
percent of the critical infrastructure in food and agriculture 
are owned by the private sector. Another area, FEMA's grant 
systems. I mentioned that you have been able to in this 
facility to--I mean, within Pennsylvania you have been able to 
obtain a million dollars in the grant programs into the food 
and ag sector. It is a great, great testimony to the work here.
    One of the challenges that we have is making sure that we 
analyze these grants that are being given to all states, being 
able to determine which programs are being effective in putting 
resources into the food and ag area and then showing those 
effective states to other states so that we can be able to 
demonstrate best practices and ways to obtain further grants in 
that competitive process within the state, so that then we can 
further protect the food and agricultural commodities and 
sectors within that state.
    I mentioned the intelligence community. DHS has a vital 
role in collecting, analyzing, fusing data within our National 
Biosurveillance Integration System. It is not just agricultural 
data that we are bringing in those programs, we are also 
bringing in data from hospitals, from other medical networks 
from around the world and from the environmental capabilities.
    These sorts of biosurveillance efforts actually result in 
the ability of building an effective tool to combat the war on 
terrorism in a similar way that sonar and radar have been used 
in previous wars.
    Customs and borders. This will be my last example. Customs 
and borders. We have seen a tremendous working relationship 
being established between the USDA and the Department of 
Homeland Security in customs and borders. Both secretaries have 
recently signed a letter supporting customs and border ag 
specialists to remain within the Department of Homeland 
Security. They are developing excellent working relationships. 
The number of inspectors has increased 30 percent. The number 
of dog teams have gone up significantly as well. And there is 
these pest risk committees, risk pest committees, at each port. 
The Port of Philadelphia has an excellent example of one of 
these committees. It has three states, university personnel, 
private sector, state governmental folks were working together 
with these pest risk committees to be able to make sure that 
the ports are secure and the stakeholders' needs are being met.
    I want to thank you for the opportunity to appear before 
you today and I want to thank you for the leadership of this 
committee to actually improve and give guidance to the 
protection of our food supply for our children and our 
children's children's future. Thank you.
    [Statement of Dr. McGinn follows:]

                  Prepared Statement of Dr. Tom McGinn

INTRODUCTION
    Mr. Chairman and members of the Subcommittee, I am pleased to 
appear before you today to discuss the progress we are making at the 
Department of Homeland Security (DHS) to prevent, respond to, and 
recover from acts of agroterrorism, major disease outbreaks or natural 
disasters affecting the Nation's livestock, crops and food supply. I 
will also address concerns regarding our national food supply chain and 
highlight a specific application to the food and agricultural industry 
in Pennsylvania.
    Congress has held hearings on agroterrorism and enacted laws and 
appropriations with various agroterrorism-related provisions. The 
executive branch has responded by implementing the new laws, and 
creating liaison and coordination offices. The Government 
Accountability Office has studied several issues related to 
agroterrorism and made very useful recommendations. Various Homeland 
Security Presidential Directives were issued to direct the development 
of national efforts to combat natural and intentional threats against 
critical infrastructures, including agriculture.
    The Public Health Security and Bioterrorism Preparedness and 
Response Act was enacted in 2002 to address agroterrorism preparedness 
and response vulnerabilities identified following September 1 1,200 1. 
Agriculture-specific provisions included expanding the Food and Drug 
Administration's (FDA) authority over food manufacturing and imports, 
tightened control of biological agents and toxins under rules by the 
Animal and Plant Health Inspection Service and Centers for Disease 
Control and Prevention (CDC), expanded agricultural security activities 
and security upgrades at USDA facilities, and increased criminal 
penalties for terrorism against animal enterprises and violation of the 
select agent rules. Concurrently, DHS became responsible for 
coordinating the overall national efforts to enhance the protection of 
the critical infrastructure and key resources of the U.S.
    Among the Homeland Security Presidential Directives, HSPD-9, 
Defense of United States Agriculture and Food, was issued to establish 
a national policy to defend the Nation's agriculture and food systems 
against terrorist attacks, major disasters, and other emergencies. The 
directive recognizes role as ``responsible for coordinating the overall 
national effort to enhance the protection of the critical 
infrastructure and key resources of the United States'' and 
acknowledges the DHS Secretary as ``the principal federal official to 
lead, integrate and coordinate implementation of efforts'' to protect 
critical infrastructure as outlined in HSPD-7. These efforts include 
mitigation of vulnerabilities in food, agriculture and water systems, 
as well as developing a robust biological threat awareness capacity. Of 
the 21 tasks for which DHS is designated as having significant 
responsibility, DHS has the lead for 12, in which the Office of Health 
Affairs (OHA) is responsible, in either a lead or support role, for 
coordination. The 12 activities fall under 5 ``pillars.'' Those pillars 
are:
    1) Awareness and Warning: under which fall intelligence operations 
and analysis of biological threat assessments;
    2) Vulnerability Assessments: under which DHS is to assess our 
national vulnerability to a broad spectrum of threats;
    3) Mitigation Strategies: under which DHS will develop and 
implement response strategies, as well as screen our national borders;
    4) Response Planning Recovery: includes activities involving local 
response capabilities and coordinating them with overall response 
planning; and
    5) Outreach and Development: which involves information sharing and 
analysis mechanisms, specialized training in agriculture and food 
protection, continued research and development of countermeasures 
against diseases, plans to provide biocontainment labs for research 
capabilities and the establishment of university-based Centers of 
Excellence.

DHS OFFICE OF HEALTH AFFAIRS (OHA)
    Secretary created the Office of Health Affairs as part of the 
Departmental reorganization on January 18,2007. OHA was created to 
protect the health and security of the American people in full 
coordination and collaboration with other DHS components, Federal 
partners, and the private sector. Responsibilities and activities 
within the do not duplicate or supplant activities currently being 
provided by other components or programs within DHS or among the 
departments and agencies of the Executive Branch. The OHA Assistant 
Secretary and Chief Medical Officer (CMO) has the specific 
responsibility to coordinate Federal activities to protect human 
health, livestock, crops, and the food supply. OHA's goals are as 
follows:
        <bullet> Serve as Secretary's principal medical and veterinary 
        authority for DHS;
        <bullet> Coordinate DHS biodefense (including agrodefense) 
        activities, to include policy, planning, strategy, 
        requirements, operational programs and metrics;
        <bullet> Ensure coordination of medical and veterinary 
        preparedness activities;
        <bullet> Serve as primary DHS point of contact for governments 
        and the private sector on medical and veterinary and public 
        health issues; and
        <bullet> Discharge DHS responsibilities under Project
    The Department serves as the integrator of Federal, state and local 
resources that are dedicated to preserving the security of the Nation. 
With specific reference to agroterrorism preparedness, in a memo dated 
March 28,2007, Secretary designated Assistant Secretary and Chief 
Medical Officer as the DHS official accountable for the implementation 
of the Department's responsibilities for veterinary, food and 
agriculture security. . .[who] will also coordinate the Department's 
responsibilities for implementation of Homeland Security Presidential 
Directive 9, Defense of the United States Agriculture and Food.''
    Within OHA, I serve as the Director of Food, Agriculture and 
Veterinary (FAV) Defense. FAV defense goals are to ensure food and 
agriculture are actualized as Critical Infrastructure, understand and 
strengthen public confidence in food protection through assessment and 
advancement, ensure critical stakeholders are functionally aligned, and 
assist all DHS Food, Ag and Veterinary programs in attaining 
operational capability. OHA FAV Defense activities are fostering 
efficiency and effectiveness across 30 programs within DHS regarding 
food and agricultural and veterinary defense.

THE FOOD SECTOR
    The post-harvest food industry accounts for 12 percent of the 
Nation's economic activity and employs more than 10 percent of the 
American workforce. It consists of enormous subsectors, including 
business lines addressing processing, storage, transportation, retail, 
and food service. Statistics on just two of these subsectors serve to 
illustrate the magnitude of the sector. The National Restaurant 
Association projects that the industry's 925,000 domestic locations 
will reach $51 1 billion in sales for 2006, serving over 70 billion 
``meal and snack occasions'' for the year. Meanwhile, the Nation's $460 
billion food retail business consists of more than 34,000 supermarkets, 
13,000 smaller food markets, 1,000 wholesale club stores, 13,000 
convenience stores, and 28,000 gas station food outlets. Like the other 
components of the food industry, these subsector business units have a 
broad geographic distribution and are present in all regions of the 
country.
    Private sector entities are the predominant owners and operators of 
the food sector. Federal, state, and local governments have noteworthy 
food production, distribution, retail, and service operations, but 
these are small when compared to private sector operations. Regulation 
of the food industry is divided between Federal, state, and local 
agencies. State, territorial, and local governments conduct oversight 
of food retail and food service establishments within their 
jurisdictions. These levels of government oversee restaurants, 
institutional food service establishments, and hundreds of thousands of 
food retailers.
    The food sector experiences several types of significant adverse 
events. Among these, intentional food contamination is of great concern 
and preventing such events has grown in importance since the attacks of 
September 1 1,2001. Food products may be deliberately contaminated with 
a wide variety of chemical, biological, or radiological agents. Despite 
that range of possible contaminating agents and the open vulnerability 
of many links in the food supply chain, there have been few recorded 
cases of deliberate food contamination in the United States. However, 
we would be grossly remiss if we began to rely upon that historical 
safety and assume it will continue into the future.
    Food safety practitioners also devote considerable attention and 
resources to hazards associated with unintentional food contamination. 
In the past, this type of food contamination has led to many major 
outbreaks, which have occurred with much more frequency and on a 
considerably larger scale than recognized deliberate acts. In 1985, for 
example, the unintentional contamination of milk with Salmonella 
typhimurium caused illness in 170,000 individuals in the United States. 
A decade later, an estimated 224,000 people in 41 states became ill 
after consuming ice cream with Salmonella enteriditidis.
    The food sector could also suffer adversely from attacks or natural 
events affecting other sectors. Because food is often consumed some 
distance from its point of production, significant transportation 
disruptions have the potential to spawn food shortages. The 
availability of food products is also dependent on the continuing 
efforts of the food sector workforce. Conditions that undermine the 
willingness of food industry workers to go to their worksites or to 
otherwise perform their jobs could also contribute to food shortages. 
Major U.S. cities typically have access to about one week's supply of 
food. Therefore, moderately sustained transportation or labor 
disruptions would critically undercut the availability of food. Such a 
disruption could occur, for example, during a widespread communicable 
disease outbreak that kept food sector workers from their jobs. 
Additionally, electricity disruptions seriously reduce the availability 
and shelf-life of perishable foodstuffs.

THE AGRICULTURAL SECTOR
    The potential for terrorist attacks against agricultural targets, 
termed agroterrorism, is increasingly recognized as a national security 
threat, especially following the events during and after September 1 
1,2001. Agroterrorism is a subset of bioterrorism, and is defined as 
the deliberate introduction of an animal or plant disease with the goal 
of generating fear, causing economic losses, undermining social 
stability. The goal of agroterrorism is not to kill cows or plants. 
These are the means to the end of causing economic damage, social 
unrest, and loss of confidence in government. Human health could be at 
risk if contaminated food reaches the table or if an animal pathogen is 
transmissible to humans.
    The agricultural sector has several characteristics that inherently 
present unique vulnerabilities. Farms are geographically dispersed in 
typically remote environments. Livestock are frequently concentrated in 
confined locations, and transported or commingled with other herds. 
Many agricultural disease agents can be easily obtained, handled, and 
distributed as they may be readily found in many areas outside the 
United States and do not pose a safety risk to the aspiring 
agroterrorist. Because of the relative success of our domestic 
agricultural disease prevention activities, our herds are free from 
more than 40 internationally significant diseases such as foot and 
mouth disease (FMD), classical swine fever (formerly known as hog 
cholera), and African swine fever. This success leads to great 
vulnerability, however, as international trade in food products often 
is tied to disease-free status, which could be jeopardized by an 
attack. Because our herds have been free of these diseases for 
generations and vaccines do not yet exist for many of them, our animals 
are highly susceptible to natural or intentional introduction. 
Moreover, most U.S. veterinarians lack experience with foreign animal 
diseases that have been eradicated domestically but remain endemic in 
foreign countries. In the past five years, agriculture and food 
production have received a certain degree of increased attention from 
the counterterrorism community and response capacities have been 
significantly upgraded. However, as I stated previously, much work 
remains before we can consider ourselves reasonably protected. 
Specifically considering FMD, the disease can be spread rapidly by 
aerosol and cause symptoms in cattle, swine, sheep, goats, deer, and 
other ruminant species. The virus is incredibly transmissible and be 
carried long distances by the natural environmental flow of air between 
farms. Should this disease become established in susceptible U.S. wild 
animal populations, eliminating it would prove problematic.
    The risk of an attack on the Nation's livestock is defined by the 
likelihood of a terrorist attempting to use a biologic agent to infect 
livestock populations, the vulnerability of those livestock populations 
to infection with the agent utilized, and the economic or other 
consequence the attack. The overall economic impact of a natural or 
intentional reintroduction of FMD would include the direct supply 
shortages to livestock-dependent industries such as the meat and milk 
industries. The feed industry would have an instant overabundance of 
feedstuffs previously consumed by production animals that could not be 
sold and employees of these industries would be adversely impacted. 
Additionally, and perhaps most significantly, major trade issues would 
result as many other nations would likely ban the import of all U.S. 
livestock products such as meat, milk, leather products, and feed. 
These direct effects on the National economy and potential impacts from 
quarantines and third and fourth order effects will reach into the 
transportation, tourism and defense sectors of our economy as has been 
seen in recent outbreaks such as occurred in the United Kingdom in 
2001.
    Computerized risk assessment scenarios conducted by DHS reveal that 
a single point introduction of FMD could spread very rapidly and affect 
millions of animals and cause billions of dollars in economic damage. 
These risk assessment and impact analysis of an attack with this 
biologic agent identify the vulnerability of our livestock populations 
and the potentially devastating consequences of only one livestock 
disease. DHS brings a great sense of urgency to develop and diagnostics 
to combat a wide variety of these livestock bioterrorism threats.

WHAT'S BEING DONE BY DHS
    In recent testimony, Secretary pointed out the $1.3 trillion of 
this economy that's focused in agriculture. He asked the question, how 
do we protect this system without damaging the prosperity and the 
techniques that actually make it a vibrant part of the economy? His 
answer was that anything DHS does has to be done in partnership with 
farmers, producers and cooperatives to analyze and understand the 
risks, and then work on a protection plan that ensures commerce is 
preserved rather than impeded. On May 21,2007, the sector-specific plan 
for agriculture and food was released; giving an overarching planning 
framework for a cooperative effort between Federal, state, local and 
tribal governments and the private industry to protect agricultural and 
food systems. Likely next steps are to understand what reduces those 
vulnerabilities and foster those activities in a strategic fashion.
    DHS is working with USDA and FDA to conduct comprehensive risk 
assessments for agricultural and food commodities, which can then be 
used to identify protective measures and research and development gaps. 
Additionally, we are working with those agencies and sector partners to 
exercise communications, response and recovery efforts. A major threat 
in the food and agriculture sectors is a crisis of confidence, where a 
poorly prevented or recognized event causes people to question the 
safety of food regionally or nationally. Therefore, a swift confidence-
building response is a critical objective of our planning and 
exercising efforts. Another critical element is to continue to provide 
online training tools for regulators, inspectors, farmers, food 
producers and food cooperatives.
    DHS is also advancing scientific research and analysis through 
several national facilities. The Plum Island Animal Disease Center 
(PIADC) is one such facility that provides diagnostic, research, and 
teaching services to prevent the introduction and spread of foreign 
animal diseases. As PIADC is aging and becoming increasingly costly to 
operate, DHS is working with USDA to build the next-generation 
laboratory that will allow advanced research to understand and develop 
better preventions against the threats to humans, crops, and animals. 
DHS sponsors two university Centers of Excellence to study emerging 
issues related to food and defense--one at the University of Minnesota, 
which conducts research on food defense and actually has a tool that 
allows quick analysis and the other is a Center of Excellence at Texas 
University that researches potential threats to animal agriculture.
    Probably one of the most important activities DHS is undertaking 
with regard to protecting the food and agricultural sectors concerns 
intelligence collection, analysis, and application. DHS is fusing, 
under the leadership of the Assistant Secretary for Health Affairs and 
Chief Medical Officer, not only the typical kinds of information 
received through the agricultural network about potential problems with 
respect to food or animals, but adding information sources both the 
health establishment hospitals and the medical network that CDC relies 
upon) and the more traditional intelligence community information. We 
need to know, for example, when and where there are highly pathogenic 
avian influenza outbreaks so that appropriate import restrictions can 
be immediately put in place to mitigate the threat to our domestic 
poultry flocks. Once we get a better operating picture, DHS can put 
measures in place at the borders to protect domestic animals and crops 
from outside pests and microbes.
    DHS also wants to integrate the various border defenses and enhance 
them with human and technological capabilities to defend this country 
against the deliberate or accidental introduction of foreign pathogens 
or pests that could affect the viability of our crops and animals. One 
key part of our border defense is the agricultural specialists within 
DHS' Customs and Border Protection (CBP). These inspectors are 
specifically trained and capable of focusing on reducing the risk from 
imported foods, plants, or animals. Agricultural inspectors intercept 
more than 4,000 prohibited meat, plant, and animal products every day 
at US ports of entry. DHS recently formed a task force with the USDA to 
address the concerns of agricultural stakeholders and to identify and 
close gaps in the inspection process.
    In March 2004, USDA, FDA and DHS invited the private sector to join 
in the creation of two bodies, one for government officials and one for 
private industry, to work together on security initiatives. The 
industry sector coordinating council (SCC) is comprised of private 
companies and associations representing key components of the food 
system. The SCC has seven sub-councils spanning the farm-to-table 
continuum--agricultural input, animal producers, plant or cop 
producers, food processors, retail operations, warehouses and 
establishments. The government coordinating council (GCC) is comprised 
of Federal, state, tribal and local governmental agencies responsible 
for a variety of activities including agricultural, food, veterinary, 
public health, laboratory, and law enforcement programs. In simple 
terms, the SCC and GCC are the liaison bodies that will plan, 
coordinate, and implement homeland security policies and programs for 
the food and agriculture sector.
    There must be a continued effort to identify ways to motivate 
public and private sectors to harden infrastructures and build a more 
resilient U.S. economy through enhanced response capabilities. Such 
resilience would facilitate the quicker reopening of a favorite 
restaurant following a small scale natural disaster and an economy that 
fuels recovery on a larger scale.

PENNSYLVANIA
    The safety and security concerns of our food systems are shared by 
consumers and government officials alike. Pennsylvania alone has nearly 
12.5 million citizens, 58,000 farms, more than 3,200 food processors, 
2,000 plus food warehouses, three large ports and a $14.5 billion 
restaurant industry. In 2005, Pennsylvania saw agricultural cash 
receipts of $4.8 billion and ranked in the top 10 of all states in 
production categories. In the same year, Pennsylvania exported $1.1 
billion worth of agricultural products to other countries. In terms of 
the impact agriculture has on Pennsylvania's economy, the dairy 
industry alone represents 1.4 percent of the Commonwealth's gross 
domestic product. Agriculture in Pennsylvania must be recognized as an 
extremely diverse industry with unique security needs. The day-to-day 
production of the food supply is what most of us think of first when we 
envision the entire agriculture sector. But agriculture also 
contributes significantly to less obvious health and welfare areas such 
as the development of vaccines and pharmaceutical research, the 
inspection of restaurants and food processors, the prevention and 
containment of unintentional outbreaks of food-borne illnesses, and the 
monitoring and management of animal and plant diseases and pests.
    The various segments of the food and agriculture sectors each have 
their own current protocols and management practices to ensure safety 
and security. However, it is essential that the Pennsylvania 
Departments of Agriculture and Homeland Security work closely to create 
a comprehensive, statewide strategy that protects consumers and the 
Commonwealth's economic interest throughout all stages of the farm-to-
fork continuum. Agroterrorism, and even unintentional acts that impact 
the Commonwealth's food supply and its security, has economic 
ramifications, through the loss of products, markets and jobs, as well 
as emotional ramifications of diminished consumer confidence in 
agricultural products and, perhaps most importantly, a lower quality of 
life.
    Focusing on the animal agriculture industry, the Pennsylvania 
Animal Diagnostic Laboratory System (PADLS) was created in 199 1 and is 
a tripartite system joining the Pennsylvania Department of Agriculture, 
Pennsylvania State University, and the University of Pennsylvania 
together for the mission of improving the health, safety and welfare of 
families in Pennsylvania. Specifically, PADLS exists for the purpose of 
protecting animals and humans from health threats by providing accurate 
diagnoses to assist Pennsylvania's agricultural community in 
controlling diseases to minimize economic loss. Also associated with 
PADLS is a field investigation team of veterinary diagnosticians with 
bases of operation at PADLS-Penn State and PADLS-New (University of 
Pennsylvania's large animal facility). This team works with veterinary 
practitioners who need support on difficult problems in the field and 
are activated when there is a suspicion of any outbreak of disease that 
may threaten Pennsylvania agriculture. Pennsylvania is also home to a 
Biosafety Level 3 laboratory that can some of the most dangerous animal 
diseases in the world.
    In terms of response and recovery, the Pennsylvania State Animal 
Response Team (PA SART) was formed in 2004 as a coordinated effort 
between several governmental, corporate, and private entities dedicated 
to preparation, planning, response, and recovery operations regarding 
animal emergencies in Pennsylvania. The mission of PA SART is to 
develop and implement procedures and train participants to facilitate a 
safe, environmentally sound and efficient response to animal 
emergencies at the local, county, state and Federal levels. Local 
teams, called (County Animal Response Teams), have been initiated in 60 
of 67 counties as of June, 2007. Funding for the PA SART and local CART 
teams is currently. limited to Federal dollars. Progress includes the 
following highlights:
        <bullet> Receipt of over $148,000 for purchase of equipment 
        from State Health Department;
        <bullet> Creation of on-line registration capability for 
        volunteers;
        <bullet> Establishment of as an IRS approved 501 (c) (3) non-
        profit organization;
        <bullet> Receipt of from Office of Defense Preparedness for 
        calendar year 2006;
        <bullet> Receipt of $380,000 from DHS Office of Grants and 
        Training for 18 months effective January 1,2007;
        <bullet> Receipt of $50,000 from State Health Department for 
        training for calendar 2006; and
        <bullet> Sponsorship of a truckload of donated supplies sent to 
        a Hurricane Katrina ravaged area.
    At the farm level, premises identification creates a unique numeric 
identifier for livestock operations, which provides traceability back 
through the food chain. The USDA also actively participates with the 
Pennsylvania Emergency Management Agency, the Commonwealth's Regional 
Counter-Terrorism Task Forces, and the Strategic Partnership Program 
Agroterrorism Initiative.
    The food distribution system would benefit from the expansion of 
food safety and security protocols. There is no requirement for 
trailers, railcars, or crate sealing for security and traceability as 
these transports move through commerce. Ports represent serious 
challenges as far as safety and security are concerned. Pennsylvania is 
home to three ports, including the Port of Philadelphia, which is the 
fourth largest port in the U.S. and the second largest port on the east 
coast. The ports in Erie and Pittsburgh must also be addressed, but the 
sheer volume of activity done in Philadelphia's port is staggering--
over 3,000 ships enter the port each year.

CONCLUSION
    Agrosecurity, food safety and food defense are issues that will 
only increase in importance as the food industry and regulatory 
agencies continue to move forward in creating policies and procedures 
to protect human and economic interests. This is a combined challenge 
for all involved, from using similar taxonomy to devising common 
reporting and response protocols during emergencies. Going forward, 
DHS, FDA and USDA must continue to work together to create and train on 
table top exercises, increase the familiarity of key players in the 
three agencies, and communicate each agency's standard operating 
procedures for different emergencies. Cross-agency efforts and funding 
should be used to inform the public and even other governmental 
organizations and leaders of the need for a strong relationship between 
these agencies to keep the food supply safe, abundant and affordable.
    Today, a single hamburger can have more than 80 ingredients, each 
of which may originate in a separate country. The coordination of 
states and local governments as central partners between the private 
sector and the Federal government will create a model vision to be 
emulated by other states. Mr. Chairman, the leadership you foster, 
within the Federal government and within Pennsylvania, will provide for 
that 'farm to fork' safety that Americans have come to expect. Thank 
you for the opportunity to speak to the Subcommittee on the state of 
food protection and security. This Subcommittee plays an important role 
in helping all of us continue to improve upon the methods and 
coordination necessary to detect and diminish threats to the Nation's 
Agricultural and Food sectors. I look forward to continuing my working 
relationship with you and the members of this Subcommittee and am happy 
to address any questions you may have.

    Mr. Carney. Thank you, Dr. McGinn. Before we go to Mr. 
Filson, I would like to do something I do not get to do in 
Washington chairing the committee. A tan Camry, license plate 
number ESH-6926 is blocking the driveway. Anybody who wants 
to----
    Mr. Filson. Welcome to rural Pennsylvania.
    Mr. Carney. I will now recognize Mr. Filson for five 
minutes or so.

STATEMENT OF DAVID FILSON, COORDINATOR, EMERGENCY PREPAREDNESS 
                          AND RESPONSE

    Mr. Filson. Welcome to rural Pennsylvania. Chairman Carney, 
Congressman Rogers, Congressional support staff and invited 
guests, thank you for inviting me to share with you at this 
Committee Hearing, Farm to Fork: Partnerships to Protect the 
Food You Eat.
    I am Dave Filson, an emergency preparedness and emergency 
response coordinator for Penn State Extension. I am also the 
chair elect for the National Extension Disaster Education 
Network or EDEN and I have been with Penn State Extension for 
22 years.
    In my current role, I have a professional working 
perspective and involvement in interagency collaboration or 
partnerships at the federal, state and local level between and 
among stakeholders across the entire continuum from Farm to 
Fork. I have co-authored a series of three OG&T reviewed and 
approved courses on agricultural emergencies and disasters and 
have collaborated with other universities, APHIS and various 
agencies and organizations on training material specific to 
emergency management for agricultural disasters and emergency 
preparedness.
    I will focus my comments around these areas. The importance 
of agriculture, the cost of a major agricultural disaster, the 
partnerships in the food and agricultural system, documenting 
the need and, finally, a few recommendations.
    Less than three percent of our population is directly 
involved in production agriculture and yet that group of 
committed farmers and ranchers generate cash receipts in excess 
of $900 billion or about 10 percent of the US Gross Domestic 
Product. Include the allied and support industries and we have 
about a $50 billion annual contribution to the national trade 
balance.
    US citizens spend less than 11 percent of their disposable 
income to feed their families with the most nutritious, most 
diverse and safest food supply in the world. Around the world, 
other nations must spend two to three times or up to 30 percent 
of their disposable income on food. Food and agriculture is not 
only big business, it is vital to our very existence.
    The Food and Mouth Disease outbreak in Great Britain 
several years ago cost that country $32 billion. If a similar 
scale outbreak occurred in the United States, the estimates on 
the financial loss to the economy range as high as $140 
billion. Additional losses would come from the loss of domestic 
and export markets and a loss of confidence in the food system 
and the agencies who are charged with protecting our food 
system.
    No less than five federal agencies have some responsibility 
to ensure the safety of our food system. USDA and FDA have the 
most visible roles but Homeland Security has overall 
responsibility. EPA and Health and Human Services have 
responsibilities at certain points. To complicate the issue 
further, lead roles in food safety change from agency to agency 
depending of whether the role is during prevention and 
preparation or during response and recovery. At the state 
level, similar diverse and varied responsibilities are held by 
state level agencies that sometimes are similar to federal 
agency responsibilities.
    The State Department of Agriculture is lead partner with 
the responsibilities for animals, plants and some food 
products. Other state level agencies have various 
responsibilities for food and agriculture safety. At the local 
level, the diversity of responsibility, and I might add the 
diversity of the level of preparedness, is even greater. Many 
counties do not have a comprehensive emergency management plan 
that addresses food and agriculture issues.
    The system is truly complex. HSPD-9 in part says, ``the 
United States agriculture and food systems are vulnerable to 
disease, pests or poisonous agents that occur naturally or 
unintentionally introduced or are intentionally delivered by 
acts of terrorism. America's agriculture and food system is an 
extensive open interconnected, diverse and complex structure 
providing potential targets for terrorist attacks. We should 
provide the best protection possible against such successful 
attacks on the United States agriculture and food system, which 
could have catastrophic health and economic effects.''
    One could argue that the system in place to protect our 
food and agriculture system, with multiple agencies at federal, 
state and local level, is also an extensive, open, 
interconnected, diverse and complex structure. Our system of 
food and agriculture safety is very complex but it works. Could 
it be improved? Yes. Can we ensure zero risk? Absolutely not. 
Partnerships exist and they function but sometimes the 
effectiveness of the partnership is limited intentionally or 
unintentionally by silo or stovepipe philosophy.
    Communication up and down within an agency, both at the 
federal and state level, occurs freely. That same degree of 
collaboration and communication across or between agencies is 
not nearly as open and free. The partnership is utilized when 
it becomes imperative to bring others into the conversation.
    Communication and collaboration issues have been identified 
in nearly every exercise and nearly every report on agency 
response capabilities. A March 20, 2007 GAO report entitled 
``Critical Infrastructure Challenges Remain in Protecting Key 
Sectors'', agriculture and food is one of our key 
infrastructures and a key sector. The barriers to success as 
identified in the report are difficulties in developing 
partnerships, concerns about sharing information and lack of 
long-standing working relationships.
    Significant resources have been channeled from various 
sources, Homeland Security, HHS, USDA, FDA and others to build 
a better food and agriculture safety system. When we consider 
the entire continuum from Farm to Fork, how much have we 
invested to ensure food and agriculture safety on the farm? 
Agencies are better staffed, better equipped, better trained, 
better exercised, more knowledgeable, but what about the 
poultry producer on the Eastern Shore, the Northeastern dairy 
producers, the Mid-west corn and soybean growers, the Western 
cattle feeders, swine producers in North Carolina and 
Washington State apple growers? What investments from agencies 
have been dedicated to the safety and security of our food and 
agriculture system for the producer at the farm or ranch?
    A national survey of agriculture producers by the Extension 
Disaster Education Network asked producers a series of 
questions. When asked, how likely do you think it is that 
agroterrorism could happen somewhere in the United States, the 
majority or 77 percent indicated that an agroterrorism event 
would likely occur. Most thought it would not happen to them 
individually but that it would occur. When asked, do you 
believe you are properly prepared for agroterrorism or some 
other biosecurity threat on your operation, only 14 percent 
said yes. This should be a concern to all of us. I am not aware 
of any funds from any federal agency allocated to improve our 
agricultural producers' level of preparedness for food and 
agriculture safety and security issues. No producer continuity 
of operations, no agriculture producer contingency plans, no 
producer disaster and terrorism plans. We have a $900 billion 
industry that could receive some support for disasters 
including terrorism. HSPD-9 says we should provide the best 
possible protection. Should not that protection also include 
the producer?
    Numerous GAO reports indicate the critical nature of 
surveillance and detection. Where better to enhance 
surveillance and detection than at the production level and by 
the individuals whose very livelihood depends on the continuous 
market of safe and nutritious agricultural commodities. Multi-
agency response and recovery enhancement is important but 
resources at the front end, at the producer level, including 
surveillance and detection and individual disaster and 
terrorist plans for agriculture producers may, in fact will 
likely, result in a fewer potential incidents escalating to 
disaster status when response and recovery are required.
    In that same EDEN survey I mentioned earlier, producers 
were asked, if you discovered a crop disease outbreak on your 
farm that you didn't recognize, to whom would you turn for 
advise? 80 percent of the producers across the nation indicated 
that they would turn to Cooperative Extension. Same group, 
different question. Who would they turn to if they discovered 
an animal disease outbreak? The highest response was their 
local veterinarian, which is logical. Following closely was the 
Cooperative Extension System and no response to the producers 
on whom they would contact did they indicate Homeland Security, 
FEMA, APHIS or FDA.
    There are a number of recommendations that I could bring to 
your attention and they are fully listed in the narrative that 
I have shared with you. Let me highlight several. Use real 
world incidents such as spinach, peanut butter, wheat gluten, 
Foot and Mouth Disease, Anthrax, soy bean rust, Exotic 
Newcastle Disease, Plum Pox Virus and other real life food 
safety incidents as valuable learning experiences. Find out 
what went wrong and then try to fix it and then share reports 
and findings across all agencies. Support and enhance existing 
resources and networks such as the Cooperative Extension 
System, the Extension Disaster Education Network and other 
established resources. Re-focus efforts toward food and 
agriculture safety and security at the producer level. Ensure 
that states and local municipalities have comprehensive 
emergency management plans that have resources, tasks and 
protocols or standard operating procedures developed to 
accurately represent the local food and agriculture community 
for all disasters, including food and agriculture issues. 
Support educational programs to increase awareness of the 
complexity of the agriculture production system to agency staff 
and first responders and educational programs to increase the 
awareness of food and agriculture safety system, including NIMS 
and the national response plan for the agricultural industry. 
CSREES and the Cooperative Extension System have established 
creditability and science to meet those needs. Evaluate the 
work. What has been the effectiveness of resource allocation at 
all levels to improve the safety and security of our food and 
agriculture system? Is the system any more safe or more 
prepared for disaster than before investment and to what degree 
and at what levels? Support research and public outreach 
programs that address current emerging issues on food and 
agriculture safety and security. Again, the Cooperative 
Extension System has science-based research in the National 
Land-Grant System and reach capability into every county and 
parish in the United States to address that need.
    As we focus on the partnerships that protect the food you 
eat, please consider the importance of the food production 
industry. Consider how we collectively, with financial support 
and with existing resources and networks, can place more 
emphasis on preparedness and preparation, surveillance and 
detection, response and recovery with possibly the most 
important partner in this partnership, the American farmer and 
rancher.
    Thank you for the opportunity to provide my professional 
perspective on the partnerships in the Farm to Fork Food 
System.
    [Statement of Mr. Filson follows:]

                 Prepared Statement of T. David Filson

    Chairman Carney, Committee members, congressional support staff, 
and invited guests, thank you for inviting me to share with you at this 
committee hearing ``Farm to Fork: Partnerships to Protect the Food You 
Eat''.
    My name is Dave Filson, I am the Emergency Preparedness and 
Emergency Response Coordinator, and Partnership Expansion Leader for 
Penn State Cooperative Extension. I am also the chair-elect for the 
National Extension Disaster Education Network (EDEN). I have been with 
Penn State Extension for 22 years.
    In my current role, I have a professional working perspective and 
involvement in interagency collaboration, or partnerships, at the 
federal, state, and local level between and among stakeholders across 
the entire continuum from ``Farm to Fork''. I have co-authored a series 
of three OG&T reviewed and approved courses on Agricultural Emergences 
and Disasters, and have collaborated with other universities, APHIS, 
and various agencies and organizations on training material specific to 
emergency management for agriculture disasters and emergency 
preparedness.
    I will focus my comments around these areas:
        The Importance of Agriculture,
        The Cost of a Major Agriculture Disaster,
        The Partnerships in the Food and Agriculture System,
        Documenting the Need, and finally,
        Recommendations.

The Importance of Agriculture
    Less than 3 % of our population is directly involved in production 
agriculture, and yet that group of committed farmers and ranchers 
generate cash receipts in excess of $900 billion dollars or about 10 % 
of U.S. Gross Domestic Product. Include the allied and support 
industries and we have about 50 billion annually contributing to the 
national trade balance. U.S. agricultural exports are more than twice 
the exports sold by other U.S. industries. The U.S. food system 
employees an additional 15 % of the U.S. workforce across the diverse 
network from ``Farm to Fork''. U.S. citizens spend less than 11 % of 
their disposable income to feed their families with the most 
nutritious, most diverse, and safest food supply in the world. Around 
the world, other nations must spend two to three times, or up to 30 % 
of their disposable income on food. Food and agriculture is not only 
big business, it is vital for our very existence.

The Cost of a Major Agriculture Disaster
    The Foot and Mouth outbreak in Great Britain cost that county $32 
billion dollars. If a similar scale outbreak occurred in the United 
States, the estimates on the financial loss to the economy range as 
high as $140 billion dollars. Additional loss would come from loss of 
domestic and export markets and a loss of confidence in the food system 
and agencies who are charged with protecting our food system.

The Partnerships in the Food and Agriculture System
    When we use the term ``partnership'' in the context of protecting 
the food we eat, the number of agencies with responsibility in these 
partnerships is so diverse that it is difficult, if not impossible, to 
describe how we as a nation ensure the safety of our food and 
agriculture system. No less than five federal agencies have some 
responsibility to ensure the safety of the food system. USDA and FDA 
have the most visible roles, but Homeland Security has overall 
responsibility. EPA and Health and Human Services have responsibilities 
at some point. To complicate the issue further, lead roles in food 
safety change from agency to agency depending on whether the role is 
during Prevention and Preparation, or during Response and Recovery. At 
the state level, similar diverse and varied responsibilities are held 
by state level agencies that sometimes are similar to federal agency 
responsibilities. The state Department of Agriculture is lead partner 
with the responsibilities for animals, plants, and some food products. 
Other state level agencies have various responsibilities for food and 
agriculture safety. At the local level, the diversity of 
responsibility, and I might add level of preparedness, is even more 
diverse. Many counties do not have a comprehensive Emergency Management 
Plan that addresses Food and Agriculture issues. Some counties have a 
plan that was developed from a generic template that was borrowed, and 
there are some counties that have a legitimate working document in 
which the stakeholders and local agency partners are identified and a 
protocol or standard operating procedure is identified for Food and 
Agricultural incidents.
    The system truly is complex. HSPD 9 in part says: ``The United 
States agriculture and food systems are vulnerable to disease, pest, or 
poisonous agents that occur naturally, are unintentionally introduced, 
or are intentionally delivered by acts of terrorism. America's 
agriculture and food system is an extensive, open, interconnected, 
diverse, and complex structure providing potential targets for 
terrorist attacks. We should provide the best protection possible 
against a successful attack on the United States agriculture and food 
system, which could have catastrophic health and economic effects.'
    One could argue that the system in place to protect our food and 
agriculture system with multiple agencies at federal, state, and local 
level is also. . .an extensive, open, interconnected, diverse, and 
complex structure. A flow chart that tracks a commodity from ``Farm to 
Fork'' and identifies the various agencies that may have oversight 
responsibility across that continuum is mind boggling!
    My comments are not intended to be overly critical. Our system of 
food and agriculture safety is very complex, but it works! Could it be 
improved? Yes. Can we ensure zero risk? Absolutely not. Partnerships 
exist and they function, but sometimes the effectiveness of the 
partnership is limited intentionally, or unintentionally, by silo or 
stovepipe philosophy.
    Within agencies, information and collaboration is more functional. 
Communication up and down within an agency, both at the federal and 
state level, occurs freely. That same degree of collaboration and 
communication across or between agencies is not nearly as open and 
free. Sometimes important information on an incident is held within an 
agency until a critical point is reached. Then, information may be 
shared across agencies. The partnership is utilized when it becomes 
imperative to bring others into the conversation. Precious time can be 
lost until all agencies are fully functional and engaged in the 
incident.
    Communication and collaboration issues have been identified in 
nearly every exercise, and nearly every report on agency response 
capabilities. A March 20, 2007 GAO report, ``Critical Infrastructure 
Challenges Remain in Protecting Key Sectors,'' Agriculture and Food is 
one of the critical infrastructures and key sectors. The barriers to 
success as identified in the report are:
        1. Difficulties in developing partnerships with DHS.
        2. Concerns about sharing information.
        3. Lack of long standing working relationships.
    As our society and our culture are changed by the events of the 
world, our way of doing business needs to change as well. Change is 
difficult for everyone. We are doing business differently, which is 
necessary. Some who are directly affected by changes in agency roles 
and accountability are challenged to perform in a new work environment. 
Time will help, but we must all be accountable for our individual and 
collective role and responsibility to ensure a safe and secure food and 
agriculture system. You, as House Homeland Security Committee members 
are included in that charge.

Documenting the Need
    Significant resources have been channeled from various sources--
Homeland Security, HHS, USDA, FDA, and others--to build a better food 
and agriculture safety system. That has been a wise investment. But 
allow me to ask, when we consider the entire continuum from ``Farm to 
Fork'', how much have we invested to ensure food and agriculture safety 
on the farm? The very hub of the system has been largely ignored. 
Agencies are better staffed, better equipped, better trained, better 
exercised, more knowledgeable, but what about the poultry producers on 
the Eastern Shore, the Northeastern dairy producers, the Mid-west corn 
and soybean growers, the Western cattle feeders, swine producers in 
North Carolina, and Washington State apple growers? What Homeland 
Security or other agency resources have been dedicated to the safety 
and security of our food and agriculture system for the producer at the 
farm or ranch?
    A national survey of agriculture producers (n,337 from 34 states) 
by the Extension Disaster Education Network (EDEN), asked producers a 
series of questions. When asked, How likely do you think it is that 
agroterrorism could happen somewhere in the U.S.?, the majority, 77 %, 
indicated that an agroterrorism event was likely to happen. Most 
thought it would not happen to them individually, but that it would 
occur. When asked, Do you believe you are properly prepared for 
agroterrorism or some other biosecurity threat on your operation?, only 
14 % said yes. Ladies and Gentlemen this should be a concern to all of 
us. What resources have we invested to improve this situation? I'm not 
aware of any funds, from any federal funding agency, allocated to 
improve our agricultural producers' level of preparedness for food and 
agriculture safety and security issues. No producer continuity of 
operation plans, no agriculture producer contingency plans, no producer 
disaster and terrorism plans. . . . We have a 900 billion dollar 
industry that has not received support to prepare for disasters 
including terrorism. HSPD 9 says we should provide the best protection 
possible. Shouldn't that protection also include the producer?
    Numerous GAO reports indicate the critical nature of surveillance 
and detection. Where better to enhance surveillance and detection than 
at the production level and by the individuals whose livelihood depends 
on a continuous market of safe and nutritious agricultural commodities?
    Multi-agency response and recovery enhancement is important, but 
resources on the front end, at the producer level, including 
surveillance and detection, and individual disaster and terrorist plans 
for agriculture producers may, in fact, will likely, result in fewer 
potential incidents escalating to disaster status when response and 
recovery are required.
    In the same EDEN Survey I mentioned earlier, producers were asked, 
If you discovered a crop disease outbreak on your farm that you didn't 
recognize, to whom would you turn for advice? 80% of the producers 
across the nation indicated that they would turn to the Cooperative 
Extension Service. The other two groups with highest number of 
responses were the State Department of Agriculture, or another farmer 
or rancher. Same group different question, Who would they turn to if 
they discovered an animal disease outbreak? The highest response was 
their local veterinarian, which is logical. Following closely was the 
Cooperative Extension System. In no response on whom to contact did 
they indicate Homeland Security, FEMA, APHIS, FDA.

Recommendations:
        <bullet> Accept the fact that we will never have zero risk.
        <bullet> Increase and improve communication at all levels with 
        all agencies and with all partners
        <bullet> Include representation and consider the input of the 
        working farmer or rancher, and the agriculture industry on 
        committees at all levels.
        <bullet> Ask agriculture producers what should be done to 
        improve food and agriculture safety and security.
        <bullet> Use real world incidents such as spinach, peanut 
        butter, wheat gluten, Foot and Mouth Disease, Anthrax, soybean 
        rust, Exotic New Castle Disease, Plum Pox Virus, and other 
        real-life food safety incidents as valuable learning 
        experiences. Find out what went wrong and then try to fix it. 
        Share reports and findings across all agencies.
        <bullet> Support and enhance existing resources and networks 
        such as the Cooperative Extension System, the Extension 
        Disaster Education Network, and other established resources. 
        Re-focus efforts towards Food and Agriculture Safety and 
        Security at the producer level.
        <bullet> Ensure that states and local municipalities have 
        Comprehensive Emergency Management Plans that have resources, 
        tasks, and protocols or standard operating procedures developed 
        to accurately represent the local food and agriculture 
        community for all disasters including food and agriculture 
        disasters.
        <bullet> Practice / test plans at all levels with all 
        stakeholders including agriculture producers, who would be 
        involved in a response effort for a food or agriculture 
        disaster or terrorism incident.
        <bullet> Support increased emphasis on surveillance and 
        detection by education of First Detectors, including producers, 
        adequately trained technicians, and adequately equipped 
        laboratories for the National Plant Diagnostic Network and the 
        National Animal Health Laboratory Network.
        <bullet> Support educational programs to increase awareness of 
        the complexity of the agriculture production system to agency 
        staff and First Responders, and educational programs to 
        increase the awareness of the food and agriculture safety 
        system including NIMS and NRP for the agriculture industry. 
        CSREES and the Cooperative Extension system have established 
        credibility and science to meet these needs.
        <bullet> Evaluate the work--What has been the effectiveness of 
        resource allocation at all levels to improve the safety and 
        security of our food and agriculture system? Is the system 
        anymore safe or prepared for disaster than before investments? 
        To what degree? At what levels?
        <bullet> Provide training in crisis communication for all 
        agencies who have food and agriculture safety and security 
        responsibility, and who interact with the public.
        <bullet> Encourage better coordination and collaboration 
        between federal and state agencies, academia, local responders, 
        and the private sector, including the agriculture industry.
        <bullet> Support the development of an improved media campaign 
        to educate the public before, during, and after a disastrous 
        event including terrorism that will reduce fear and panic.
        <bullet> Support research and public outreach programs that 
        addresses current emerging issues on food and agriculture 
        safety and security. Again, the Cooperative Extension system 
        has science-based research in the national Land-Grant system 
        and reach capability into every county and parish in the United 
        States to address that need.
    As we focus on the ``the Partnerships that Protect the Food You 
Eat'', please consider the importance of the food production industry. 
Consider how we, collectively, with financial support, and with 
existing resources and networks can place more emphasis on preparedness 
and preparation, surveillance and detection, response and recovery with 
possibly the most important partner in this partnership, the American 
Farmer and Rancher!
    Thank you for opportunity to provide my professional perspective on 
the partnerships in the ``Farm to Fork'' food system.

    Mr. Carney. Thank you, Mr. Filson. I now recognize Dr. 
Hoerr to summarize his testimony for five minutes or so.

   STATEMENT OF DR. FREDERIC J. HOERR, PROFESSOR, COLLEGE OF 
             VETERINARY MEDICINE, AUBURN UNIVERSITY

    Dr. Hoerr. Chairman Carney, Mr. Rogers, thank you for the 
invitation to present this testimony.
    My name is Fred Hoerr. I am a veterinarian who serves as 
director of the Alabama State Diagnostic Laboratories. I am 
also a professor at the Auburn University College of 
Veterinarian Medicine.
    Today I am presenting information about Auburn University's 
research technologies and programs that respond to food safety 
and agroterrorism concerns for the State of Alabama and for the 
nation.
    Auburn University is a top 50 public university with 
notable programs in training of dogs in the detection of 
explosives and drugs and in advanced conflict and tactical 
simulation software for first responder training.
    In many ways, Alabama is a microcosm of other agricultural 
states. We are an exporter of chicken and beef but an importer 
of dairy products. An agroterrorism event can threaten the 
economy of Alabama by directly affecting production, blocking 
exports, limiting imports of dairy products and influencing 
livestock and poultry markets. For this reason, research at 
Auburn University is focused on the detection of agents that 
threaten food safety and the public health and well-being.
    The Auburn University Detection and Food Safety Center was 
developed with faculty from across the university. The goal is 
to foster research synergism to develop new technologies that 
will detect food-borne pathogens from the farm to the dinner 
table and to facilitate the transfer of this technology to 
society. The center has made advances in the prevention of BSE 
or Mad Cow Disease by developing a new procedure for detecting 
ruminant byproduct in animal feeds. Other research focuses on 
the detection of agents of agro or bioterrorism such as, 
research to understand the cellular basis for the very 
sensitive smell possessed by animals, to develop new 
technologies to detect pathogens at extremely low levels. Also, 
newly developed biosensors for Anthrax and salmonella are more 
robust than those currently available. Also involving detection 
is our new State Diagnostic Laboratory on the Auburn Campus, 
which continues a 60-year partnership with Auburn University 
and the Alabama Department of Ag and Industries, the Honorable 
Ron Sparks, Commissioner. This biosafety level two and three 
laboratory is a member of the National Animal Health Laboratory 
Network. It conducts surveillance for foreign animal diseases 
and would be the first responder laboratory for an 
agroterrorism event in Alabama.
    In the area of response, Auburn is the lead site for 
development of advanced conflict and tactical simulation. This 
is software first developed by the military but undergoing 
modification for domestic application. ACATS can model 
terrorism or agroterrorism events for almost any variable that 
could be encountered. For national implementation of ACATS, 
Auburn works with 10 regional collaborators with the goal of 
putting this training capability in every state and down to the 
county and local city government. Also in the area of response 
is a new avian influenza vaccine that enables rapid production 
of a vaccine specific to an emerging strain with high-volume 
production and mass application to millions of chickens if 
necessary.
    Auburn faculty are active in agroterrorism awareness and 
training at the regional and national levels including Internet 
New Digest, with the latest information on agroterrorism 
awareness and on avian influenza. As mentioned by Mr. Filson, 
the Extension Disaster Awareness Education Network, or EDEN, 
Auburn veterinarians work with southern regional states and the 
goal of this program is to provide farmers information about 
farm security and disaster planning. And our veterinarians at 
the College of Veterinarian Medicine have recently published 
articles on veterinarian responsibilities in agroterrorism and 
natural disasters.
    Auburn University veterinarians are instructors in the 
Department of Homeland Security, Center for Domestic 
Preparedness in Anniston, Alabama. Each year, the Agricultural 
Emergency Response Training course--in this course more than 
400 first responders from across the nation receive training 
specific to agricultural events. It is the only program of this 
type with hands-on animal training scenarios which are 
conducted at the College of Veterinary Medicine at Auburn 
University.
    For the future, Auburn University offers accountability in 
developing technologies that are applicable to Alabama and to 
the nation. We are fostering collaborative research lead by 
innovative faculty, while we strive to provide quality research 
facilities for those faculty members. Through our new research, 
our Auburn Research Park, we will transfer new technology to 
the marketplace by building partnerships with business and 
industry.
    Thank you again for the invitation and this concludes my 
formal presentation.
    [Statement of Dr. Hoerr follows:]

           Prepared Statement of Frederic J. Hoerr, DVM, PhD

    Mr. Chairman, Ranking Member, and Members of the Committee. Thank 
you for the invitation to present this testimony on the activities of 
Auburn University relative to food protection, particularly those 
aspects related to agroterrorism. My name is Frederic Hoerr. As a 
veterinarian with specialties in pathology and in poultry medicine, I 
have worked with the poultry industry in Alabama since 1980. For the 
past 20 years, I have served as the director of the state diagnostic 
laboratories for Alabama, a program of the Alabama Department of 
Agriculture and Industries, The Honorable Ron Sparks, Commissioner. I 
hold a joint appointment in the Auburn University College of Veterinary 
Medicine at the faculty rank of Professor
    Auburn University is a top-50 ranked public university that has 
provided instruction, research and outreach to benefit Alabama and the 
nation for more than 150 years. Auburn contributes to our nation's 
homeland security through a number of innovative programs, including 
AU's unique ability in canine explosives and drug detection training 
and AU's robust first responder training activities that utilize the 
highly flexible Advanced Conflict and Tactical Simulation (ACATS) 
exercise software
    In many ways, Alabama is a microcosm of the interstate and 
international scope of agriculture today. States with intensive 
agriculture must rehearse for rapid and effective response to an 
agroterrorism event, develop rapid detection capabilities for agents of 
agroterrorism, create a awareness of the issues among the agricultural 
producers, and train agricultural first responders. Auburn University 
is addressing these key components not only for the state of Alabama, 
but with technological developments and programs that can benefit the 
nation as a whole.
    Alabama ranks third nationally in broiler chicken production and 
9th in beef cow production. These rankings translate to a substantial 
economic presence in the state with nearly 4000 poultry farms producing 
20 million chickens each week. The 2002 USDA Agricultural Census maps 
show many counties clustered in north and south Alabama having 75% or 
more of their total economy based on poultry production. Alabama 
chickens are a healthy and wholesome food shipped to consumers 
throughout the country and exported throughout the world. Many poultry 
farms are also ideally suited for the production of beef cattle, 
especially beef cows producing calves that are shipped to feedlots in 
western states. The poultry-beef farming connection is exemplified by 
Cullman County, which ranks first in the state in poultry and cattle 
production, and second in dairy production. Dairy production in Alabama 
now occurs on fewer than 90 farms, with much of the state's milk supply 
imported from Texas and New Mexico.
    From these basic farm facts emerge several agroterrorism concerns. 
The density of production farms in poultry-rearing areas creates a 
major challenge to prevent the rapid spread of a highly contagious 
disease, whether it is introduced naturally or maliciously. Centers of 
poultry production in Alabama extend across the state lines into 
Georgia, Florida, Mississippi and Tennessee. Ten to 20 percent of 
poultry products are exported and therefore vulnerable to rapid closure 
of export markets in the event of a disease emergency. Calves produced 
in Alabama are shipped out of state to realize their economic potential 
and require health certificates to travel interstate. During an animal 
disease emergency, farm quarantines for either a poultry or cattle 
disease could severely impact all of the poultry, beef, and dairy 
production within a quarantine zone involving one or more counties. 
This could result in not only the direct loss of animals on the farm, 
but also economic losses from an inability to process rapidly growing 
poultry at the market weight, the closing of interstate shipments of 
cattle and poultry products, and the overnight loss of export markets. 
Those who work in diagnostic and regulatory testing of livestock and 
poultry are reminded are ever mindful of this potential reality. The 
line between an agroterrorism event and a threat to a major segment of 
the food supply is only a matter of the severity of given situation, 
and the effectiveness of the response to it.
    Auburn University's mission is defined by its Land-grant traditions 
of service and access. Several significant advances relative to acts of 
agroterrorism and safety of the food supply are highlighted in the 
following.
    Detection. The Auburn University Detection and Food Safety Center 
(AUDFS) links and coordinates researchers from five Auburn University 
colleges: Agriculture, Engineering, Human Sciences, Sciences and 
Mathematics, and Veterinary Medicine. Core faculty work together to 
address the need for next-generation sensors and information systems 
for the detection of food contamination, and rapid inventory and 
traceability of food products. The results of this research will 
benefit national and international efforts to detect threats to the 
food supply system. AUDFS seeks to combine advances in the 
identification of foodborne illnesses and contaminants with the latest 
in biosensor technology. The goal is to have a system that monitors 
food products from production to consumption, thereby eliminating or 
reducing significantly the threat of foodborne bacteria, pathogens and 
toxins reaching our dinner tables and restaurants. AUDFS fosters 
multidisciplinary programs leading to synergistic collaborations 
between university researchers and the detection industry. It 
facilitates technology transfer from the university to product 
development, and encourages joint industry-university research 
collaborations. Potential applications include technology to 
instantaneously evaluate food safety at port-of-entry inspection 
stations; ascertain the presence of ruminant meat-and-bone-meal (MBM) 
in agricultural feed, thereby preventing bovine spongiform 
encephalopathy (BSE) from infiltrating the food-supply chain; and 
identifying, warning and tracing problems in food processing lines.
    Two core faculty members of AUDFS, who are located at the College 
of Veterinary Medicine, focus on improved detection technologies. Dr. 
Vitaly Vodyanoy studies sensory physiology and the biophysics of odor 
detection using the canine nose and its highly sensitive sense of smell 
(olfactory system). The aims are to determine the initial 
chemoreceptive events in the animal olfactory system and to find out 
how the odor-related information translates into electrical events in 
the cellular level. The potential application of this research is to 
produce new or improved artificial systems responsive to very small 
concentrations of odorant. The objective is to develop an 
electrochemical sensor that shares basic molecular mechanisms 
associated with the sense of smell. Dr. Valery Petrenko studies small 
viruses (phage) that infect bacteria. He discovered that specific 
proteins on the outer surface of the phage can be employed as sensitive 
and specific detectors of Bacillus anthracis (anthrax) spores as well 
as Salmonella. He is developing additional applications for other 
pathogenic viruses, bacteria, and toxins.
    The cooperative relationship between Auburn University and the 
state diagnostic laboratory now extends to 60 years. The state 
laboratory emerged from the post-war veterinary school in 1947, 
progressing to the new Thompson Bishop Sparks State Diagnostic 
Laboratory, a program of the Alabama Department of Agriculture and 
Industries, in 2006. This Biosafety Level 2 and 3 facility is the 
central animal disease diagnostic laboratory in a four-laboratory 
system. Diagnostic and regulatory testing is provided for livestock, 
poultry, wildlife, and companion animals. The Auburn laboratory, a 
member of the National Animal Health Laboratory Network, provides full 
service diagnostic testing to determine the cause animal mortality, as 
well as regulatory testing for interstate and international movement of 
animals. The state laboratories will conduct 900,000 diagnostic tests 
in 2007, including surveillance for avian influenza in poultry, 
waterfowl, and wild birds. The state laboratories are linked to the 
National Veterinary Services Laboratory for confirmatory testing for 
emerging and foreign animal diseases. This laboratory is the most 
likely first-site of laboratory assessment and preliminary 
determination of an agroterrorism event involving animal health in 
Alabama. Because of the size of poultry production in the southeastern 
U.S. and the potentially rapid spread of an infectious disease, this 
detection capability has major regional impact.
    The diagnostic laboratory is both a consumer and developer of new 
detection procedures and technologies. As the point of first detection 
of emerging diseases in Alabama, numerous research projects at Auburn 
University have been initiated through the years by diagnostic 
laboratory findings of infectious diseases of poultry and livestock.
    Response. Auburn University is the pilot site for deployment and 
training of a conflict response modeling program, Advanced Conflict and 
Tactical Simulation (ACATS). This U.S. military-developed program is 
being refined and tested as an emergency response and homeland security 
preparedness trainer for local, state and regional public service 
agencies. ACATS provides realistic and real-time computer simulation to 
improve domestic response preparedness rehearsal activities. The 
computer simulation program integrates terrain and structures, vehicles 
and equipment, line of site responder views, sensor data, weather, 
casualty modeling, human fatigue factors, and chemical dispersion 
models for real-time modeling. ACATS has potential application to agro/
food supply terrorism with appropriate refinements, especially large 
venue events, which could rapidly occur in the poultry or cattle 
producing regions of Alabama and throughout the nation. ACATS testing 
is in the early stages with lead agencies in eight national regions, 
and will eventually link deployment sites in every state across the 
nation.
    The first egg-injected vaccine to protect chickens against avian 
influenza (AI), a virus threatening human health and global poultry 
populations, has been developed by Dr. Haroldo Toro, at the College of 
Veterinary Medicine in collaboration with researchers at Vaxin Inc. of 
Birmingham, AL. This vaccine has the potential to diminish the spread 
of highly pathogenic avian influenza in large commercial poultry 
production facilities located throughout the world.
    The vaccine can provide a high degree of protection once an 
outbreak's strain is determined. The researchers inserted a gene from a 
low pathogenic avian flu virus strain (H5N9) into a non-replicating 
human virus (a Vaxin proprietary technology), which was then injected 
into developing chicken embryos still in the egg. In trials with the 
vaccine against two highly pathogenic avian flu viruses, a Vietnam H5N1 
strain and a Mexican H5N2 strain, the results showed acceptable to 
excellent protection. Current AI vaccines have inherent constraints 
against large volume production and must be administered to individual 
birds by hand application. This vaccine can be produced in high volume 
and robotically administered into the incubating egg several days 
before the chick hatches, both major advantages.
    U.S. poultry producers, with a few specific exceptions, do not 
vaccinate for AI and their flocks have no protection to the disease 
should exposure occur, such as during a bioterrorism event. Dr. Toro's 
work is a significant advancement because of the millions of chickens 
that may need to be rapidly vaccinated in the face of an outbreak. This 
vaccine technology provides for rapid production of a strain-specific 
vaccine that can be applied to large populations of chickens, 
protecting the viability of the poultry industry, as well as the 
poultry meat protein in the food supply. It could also significantly 
reduce the public health threat that could develop with certain AI 
strains amplifying in commercial poultry flocks.
    Awareness. Dr. Robert Norton, of the College of Agriculture, 
publishes a daily news digest of agroterrorism-related news as well as 
a similar list devoted to avian influenza, with linkages to the 
unclassified avian influenza mapping system (AIMS) (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="147a7b66607b667554757339">[email&#160;protected]</a>
security.com). The subscribers to this list number in the thousands, 
representing most states and several countries. Faculty members in the 
College of Agriculture consult with Federal agencies about protecting 
agriculture and food production. The close working relationship between 
Auburn faculty and poultry and livestock producers in Alabama enhances 
the value of this information transfer.
    Extension specialists in the Alabama Cooperative Extension System 
are working with specialists from the southeastern U.S. to develop the 
Extension Disaster Education Network (EDEN), which includes 
agroterrorism awareness information. EDEN is a working partnership of 
extension specialists, livestock and poultry producers, and emergency 
responders to help protect the food supply system.
    Agricultural and veterinary faculty members participate in the 
Annual Agroterrorism Conference sponsored by the South Central Center 
for Public Health Preparedness at University of Alabama at Birmingham, 
and the Alabama Department of Agriculture and Industries. Two recent 
publications by Auburn veterinarians in the Journal of American 
Veterinary Medical Association delineate role of veterinarians, 
including small animal veterinarians, in biological and agricultural 
terrorism (JAVMA (2007) 230:494-500; 1476-80).
    Training. Auburn University has significant collaboration with the 
Department of Homeland Security at the Center for Domestic Preparedness 
in Anniston, Alabama. Four faculty members from the College of 
Veterinary Medicine provide instruction in the Agricultural Emergency 
Response Training program (AgERT). Thirteen training sessions with 32 
students each are held annually, training a total 416 first responders 
from across the nation each year. The trainees include fire fighters, 
HAZMAT specialists, veterinarians and veterinary technicians, and 
agricultural first responders. The Auburn instructors present 
instruction on epidemiology, foreign animal disease recognition, animal 
restraint and euthanasia, and methods of mass carcass disposal. This 
course is the only training of this type that includes hands-on 
experience with post mortem examination of animals under adverse field 
conditions, presented as a scenario at the College of Veterinary 
Medicine.
    The future. Auburn University is a prime force that supports the 
state of Alabama's efforts to move to a knowledge-based economy, taking 
its place as one of the nation's preeminent comprehensive land-grant 
universities in the 21st century. In this spirit, Auburn continues to 
focus strategically its agriculture and food safety programs; yielding 
results that are broadly benefit the national effort to protect the 
food supply. The AU Detection and Food Safety Center is yielding 
technologies available for transfer to the market place and 
implementation. The development of the avian influenza vaccine reflects 
the partnership of the private and public university research sectors.
    This synergism should expand with the Auburn Research Park, 
scheduled to open in 2008. The research park will help create new 
academic, research, and entrepreneurial opportunities for Auburn 
faculty and students, and help build stronger partnerships with 
business and industry. Agriculture and food safety can become chief 
beneficiaries of this effort. The ACATS program is a technological 
development that can bring Auburn University into partnership with 
small municipalities and county governments state-of-the-art modeling 
and rehearsal scenarios. The state diagnostic laboratory, with linkages 
to Auburn University, the Alabama Department of Public Health, the 
USDA, as the Alabama Department of Agriculture, and the NAHLN is 
positioned for modeling exercises. With five veterinarians trained in 
Foreign Animal Disease diagnosis at the Plum Island, the laboratory is 
developing closer relationships to hands-on training of veterinary 
students from Auburn University and nearby Tuskegee University in 
pathology skills needed recognized and respond to an agroterrorism 
event.
    The future success of Auburn University requires that it be 
accountable to the citizens of Alabama and the nation. This is 
essential to maintaining a strong innovative faculty and the facilities 
to support expanding research programs of an increasingly complex 
nature.

    Mr. Carney. I would like to thank all the witnesses for 
their testimony. Mr. Rogers and I will now ask the panel some 
questions. It will go about five minutes each. We will probably 
have two or three rounds anyway. I will recognize myself for 
the first five minutes. This is to all the witnesses, starting 
with Dr. McGinn.
    Under the national response plan, DHS is to be a 
coordinated agency during a terrorist act, a major disaster or 
other emergency involving the Nation's agricultural or food 
systems. Could you please give us some detail how you have seen 
the department fulfilling its role?
    Dr. McGinn. In an agroterror event? Obviously, if it is 
agroterror, then what is probably going to happen to begin with 
is it is going to show up as a large-scale event, multiple 
states probably. At the same time, we will start diagnosing and 
will very quickly recognize a trigger that says we are no 
longer dealing with a small-scale incident, we are dealing with 
a massive intentional, sort of event. In that situation, DHS is 
in a position where quite a number of federal agencies will be 
involved in that kind of response. Lots of states will be 
asking the President to declare an incident of national 
significance and so we would be in a coordinating role. And 
that coordinating role, to bring together all the assets at the 
federal level but also at the state level and down to the local 
one and private sector level as well. We would not be doing 
that in a way that takes away any of the other agencies' legal 
responsibilities. They would actually be in--USDA, for 
instance, would be working with the state level to be able to 
manage the agricultural and animal concerns within such an 
incident. It is that coordination that is actually what gives 
you the ability to get ahead of a biological event, which is 
quickly spreading of an intentional nature.
    Mr. Carney. Let me ask you this. Has DHS reached out to 
state and local governments across the country beforehand? We 
do not want to see a kind of a Katrina thing happen where we 
respond after the fact. Has this outreach been done? Are you in 
the process of doing it? Where are we there?
    Dr. McGinn. At this point in time I am an office of one and 
we are in the process of expanding that office to six FDs, bio, 
eight. One of my first responsibilities is to work on this 
national planning-type of responsibility that DHS does have. A 
national plan has to have all the different seams between the 
state and the local work in such a way that they work together. 
We have had several incidences and as Mr. Filson was saying, 
use the incidences that have occurred in the past to help you 
see the kinds of things you need to do. We have had incidences 
recently that demonstrate the need for us to work in a much 
more coordinated interagency sort of way than we have been able 
to accomplish yet and we are trying to learn from those 
instances to actually build that capability.
    One of the key ways that we have done what you are asking 
about is providing training resources into the states to be 
able to do training and exercises. Planning, equipping, 
training and exercising are the key ways that when we build 
this capability at the state and local level that we need to be 
able to have within DHS to be able to respond to a disaster. 
Some $160 million--a portion of $160 million of the dollars 
that go to the states have been used--DHS dollars that go to 
states have been used in the whole area of building plans and 
building exercises. We got a ways to go in being able to 
respond to an intentional outbreak as effectively as we want to 
but we have made significant advancements through those 
resources being put into the states.
    One of my challenges is to increase that capability so that 
we got a much more coordinator approach. Thanks.
    Mr. Carney. Mr. Filson?
    Mr. Filson. Dr. McGinn I think made some very valid points 
and I think if we assume that there has already been some sort 
of an incident, then we are already fast-forwarding to a 
response and recovery mode and we are not talking about 
planning, preparation or mitigation. So with that assumption, 
Homeland Security's role would be one of fostering resources, I 
think at all levels. Not just at the federal level but helping 
to foster resources at the state level and fostering the 
communication collaboration of those agencies who have direct 
responsibility for this kind of an incident. I think the over-
arching objective would be to make sure that everybody who has 
responsibility, and that might include CDC, could include FDA, 
USDA, EPA, FEMA, FBI depending on who all may be involved and 
what kind of food product it would be, would be to make sure--
Homeland Security's job--make sure that all those agencies 
understand what their role is in that particular incident and 
coordinate resources. That may mean moving resources from one 
area of the country or one agency to help stop, gap and provide 
the required kind of support that may be necessary depending on 
the particular incident. They are the go-to people when there 
is a problem in making sure that a particular agency that needs 
resources gets their resources.
    I do not look to Homeland Security as those that have the 
answers. We have a number of federal and state agencies who 
their role is to answer the questions and respond down from the 
state to the local level. I look at Homeland Security as the 
agency that fosters the collaboration between those agencies at 
all levels.
    Mr. Carney. Have you had a relationship with Homeland 
Security before now? Can you describe the nature of that 
relationship?
    Dr. McGinn. Nature of the relationship would be 
conversations in developing exercises, being part of exercises 
at the state level, to identify areas in food and agricultural 
disasters where there may be some room for improvement. It 
would be at the state level working with Pennsylvania Office of 
Homeland Security and FEMA to identify vulnerability issues and 
the Pennsylvania's Food System, likewise, developing exercises 
to test the agencies at the state level. No interaction with 
Homeland Security at the local level.
    Mr. Carney. My time is up in this round. I now recognize 
Mr. Rogers for five minutes.
    Mr. Rogers. Thank you, Mr. Chairman. I want to follow up on 
that. My impression from the Chairman's initial question to Dr. 
McGinn was, in the event of what we suspect is an agro-terror 
attack, who is in charge? I am open to an answer. Is it going 
to be DHS? Is it going to be your state agency? Who is going to 
be in charge in the event that it becomes obvious we have had 
an agro-terror attack?
    Dr. McGinn. Homeland Security will be in that position of 
being in charge. We will be building those relationships, 
fostering that the resource that he is referring to both now in 
the planning side and also in the response side.
    Mr. Rogers. Do you have the authority to direct actions by 
anybody outside your agency?
    Dr. McGinn. In an incident of national significance, which 
I think you are describing would occur, then we are in the 
position where we actually do that coordination, yes.
    Mr. Rogers. Okay. I want to ask, last month GAO issued a 
report on the USDA. I am talking about an Avian Flu Pandemic. 
And the GAO found that USDA's plan would actually bypass DHS in 
the event of an outbreak, and we believe DHS would be charged 
with the lead. Because DHS and USDA coordination is absent from 
USDA planning, how do you think that is going to work itself 
out? If USDA is saying they do not have to listen to you, not 
even plan to interact with you in the event of an outbreak, how 
do you resolve that failure in planning?
    Dr. McGinn. It was my understanding, because I worked 
through that report, my understanding was that USDA put 
together a plan for what they considered to be high path AI 
type scenarios that they would be facing. And they put together 
one that looked at markets, commercial birds and wildlife, for 
example. What did not occur in that planning process was one 
that would be an incident that actually expanded to an incident 
of national significance or at least an incident where the 
number of sick people would be involved, an exotic disease for 
example. In situations where there would be, for instance, H5N1 
that we currently have with the potential for a number of human 
illnesses, you have a zoonotic component there that gets human 
health involved, as well and this whole interagency 
coordination becomes even more essential. So what my 
understanding was in the GAO report was is they wanted to see 
where scenarios where DHS was needed to assume this role of 
interagency coordination. Particularly if an incident of 
national significance was to occur, they want to be able to see 
that we put together the kinds of planning that would 
accomplish that. GAO directed us to develop con-ops with USDA 
and we are very glad to be able to work on that and issue.
    Mr. Rogers. Well, that is what I--as you know, I am a 
member of the House Agriculture Committee as well and I want to 
make sure that we, on the policy side, have put in place the 
appropriate authorization to make sure that there is some 
sequence of organization in the decision-making process in the 
event of an attack. And I am concerned, we are talking about 
this coordination, we are talking about voluntary coordination 
and when it comes down to an emergency, nobody is going to be 
in charge. Mr. Filson, let me ask you. Do you agree with Dr. 
McGinn's assessment that in the event of what appears to be an 
agroterrorism attack, and to make it clear, that it is just not 
appearing, that the President comes out an acknowledges that we 
have been attacked by whatever group, that there is some al-
Qa'ida or some other group goes up on the web and acknowledges 
that they are responsible for whatever outbreak, do you agree 
with Dr. McGinn that DHS would be in charge of directing 
actions at the state and local level as well?
    Mr. Filson. On an overall level, I agree with Dr. McGinn 
that Homeland Security would be in charge. I think the 
variances that within that responsibility, specific agencies 
may have lead agency roles over which Homeland Security would 
oversee their activities.
    Mr. Rogers. But do you believe that they would voluntarily 
subordinate their activities to DHS in that event?
    Mr. Filson. I think that remains to be seen. One of the GAO 
reports indicated that this new arrangement for levels of 
responsibility and reporting was an area that created some 
challenges and will have to be tested.
    Mr. Rogers. Do you believe that Congress needs to put in 
place some legislation that would mandate what that structure 
should be?
    Mr. Filson. For all of our sakes, I would hope that 
personalities would not get in the way and we could do this 
voluntarily for the good of all of us so it would not have to 
be legislated by law. One of the recommendations that I made in 
an AAAS-sponsored briefing to Congress a week or so ago, 
identified the need to talk about building a matrix. That when 
an incident occurred, there would be an automatic level. When 
it reaches a certain level, all the agencies would become 
involved and be aware of it so that it did not wait until some 
person within an agency decided by human decision, it is time 
to share information across agency lines.
    Mr. Rogers. I just want you to understand. By nature and 
philosophy, I am a small government kind of guy. I think the 
federal government should not be involved in anything it does 
not have to be involved in. But Katrina taught us a real lesson 
in preparedness and I am hopeful that we do not drop the ball 
as far as Congress is concerned in making sure that we are 
comfortable, that we are going to have cooperation, if not 
voluntary then otherwise. But my time is up. I will get you in 
the next round. Thank you, Mr. Chairman.
    Mr. Carney. Thank you, Mr. Rogers. Let us just kind of 
continue down this path a bit. Do you think the government has 
defined clearly enough the roles of the governmental agencies 
to handle these things, potential terrorist attacks?
    Mr. Filson. I believe on paper it is very well-defined. I 
think in practice it may yet to be decided how that may play 
out.
    Mr. Carney. Has this been exercised yet?
    Mr. Filson. May I respond?
    Mr. Carney. Yes.
    Mr. Filson. I think the exercises have been played out, 
testing particularly agency response plans. I think the 
shortcoming in most exercises is that they are limited to 
within agencies or within several agencies and then have not 
brought all the stakeholders together who would be affected in 
the event of a disaster. So if you would test any particular 
agency for their response plan or their role in an agricultural 
disaster, they have a response plan and they have exercised it 
within their agency. My concern is that in a real incident, it 
is not going to be just one agency. It is going to be multiple 
agencies working at the same time, some simultaneous, in the 
same geography, on the same incident. Those kinds of exercises 
I am not sure have been fully practiced as they should.
    Mr. Carney. Do you know, Dr. McGinn, have they been?
    Dr. McGinn. There has been quite a lot of exercises being 
done and they are continuing to be done like, for instance, on 
pandemic flu types of exercises. One of the things that I have 
followed on would say this whole aspect of a con-ops that the 
GAO asked for then instructs you on a day-by-day basis what 
sorts of critical things have to be done and what agency is 
going to do them. That is when you are really getting down to 
the place where you are actually scoping out what the 
responsibilities are and who is going to get them done, day 
one, day two, day three.
    Mr. Carney. Okay. Following on that train of thought, who 
has responsibility, who is going to fulfill them? Do you 
believe your department, your area, needs additional authority 
to fulfill its responsibility?
    Dr. McGinn. Well, we have the responsibility in task number 
15 within HSPD-9 to actually do this coordinated planning. We 
also had the responsibility to----
    Mr. Carney. But that is not what I asked. That is not what 
I asked. Do you think you need additional? Do you have what you 
need as far as authority goes?
    Dr. McGinn. Additional authority, we currently do not have 
the resources to actually do the planning that is necessary. 
That is part of why this Office of Health Affairs is being 
developed, to actually do this sort of planning capability.
    Mr. Carney. Okay.
    Dr. McGinn. Clarifying of roles. I think, part of the best 
way to clarify roles is to define what are the actual tasks 
that need to be done on a daily basis and who is going to do 
those tasks. Is it going to be the industry, is it going to be 
the state or is it going to be a federal agency?
    Mr. Carney. Under your--do you have enough staff? What 
other resources do you need? Do you need more staff? Is your 
staff at the right levels now? What do you think?
    Dr. McGinn. Well, our office was stood up January 18, 2007, 
by Secretary Chertoff. Our plans are to have six persons 
working in this area by the end of 2008 with the possibility of 
additional five detailees. The kind of work that you are 
describing to coordinate these different components, programs 
within DHS, is a large task and we are going to take it a day 
at a time as we can get the job done.
    Mr. Carney. Well, certainly Secretary Chertoff has put a 
great deal of responsibility on your shoulders. I guess I am 
not saying yeah, we have enough resources to do the job. You 
have not said that yet.
    Dr. McGinn. We have begun the process. We are identifying 
these sorts of gaps. National planning, building capability 
down to the local level are some challenges we yet have in 
front of us and having the staff to do that is part of what we 
are building to in 2008 and 2009 and going forward.
    Mr. Carney. Dr. Hoerr, do you care to comment on this 
conversation?
    Dr. Hoerr. The original question had to do with what was 
the process. The process from my end of the business in a State 
Diagnostic Laboratory director is that the initial detection 
most likely is going to be made out of a State Diagnostic 
Laboratory. Exactly when the USDA comes into a state is really 
a decision of the state agricultural commissioner or the state 
veterinarian would issue an invitation or a call for help from 
the USDA. That said, my colleagues in the USDA, who we work 
very closely with in partnership, I think have a really 
commendable record on disease control. The H5N1 influenza 
scenario though is something that I do not think we have dealt 
with. We have dealt with highly pathogenic avian influenza but 
not one that offers a threat to the public health. And so I am 
concerned that should that become a major outbreak, that there 
would be a vast marshalling of courses needed across the 
country and exactly who does that now is above my pay rate, 
sir. But I think there is a need for somebody to take the big 
coordinating role, Department of Justice, Transportation, 
bringing in national guards. I mean, it could be big.
    Mr. Carney. Dr. McGinn?
    Dr. McGinn. To add to this and answer your question, do we 
have enough resources? One of the challenges that we see is 
that the resources that are necessary at the local and state 
level need to be plussed up. My challenge within Homeland 
Security is to identify how to get that job done so that those 
who are going to be responding very quickly to a biological or 
chemical event can move at the state and local level with 
efficiency to maintain our confidence in our food supply. So 
resources definitely are needed at lots of levels and 
particularly at the local and state level to build both 
preparedness capability and response capability. We got to 
build a resilient system. If we are attacked, if we are 
insulted, intentionally or accidentally, our ability to get 
back to normalcy is a challenge.
    Mr. Carney. Thank you. My time is up in this round. Mr. 
Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. We will remind you, 
the primary purpose for us having this hearing is to draw on 
your expertise as to what we do and do not need with the 
Congressional record. And I want to pick back up where I left 
off a little while ago on who is in charge. When you talked 
about the need for these exercises, it opened the door for 
something I was going to talk about anyway which is ACATS. Dr. 
Hoerr mentioned it a little while ago. It is Advanced Contact 
and Tactical Simulation Programming. It is a software program. 
And I would ask Dr. Hoerr, could you tell us a little bit more 
about how this would be used in an agroterrorism event?
    Dr. Hoerr. Right. At this time, ACATS is a potential for 
agroterrorism. But ACATS is a program that can take into 
account a large number of variables. Terrain vehicles, hospital 
beds, just almost any of these commonly-encountered roadblocks 
to success in a disaster type situation and can put together a 
challenging modeling simulation program for people to rehearse 
to check out their systems.
    Mr. Rogers. And my understanding--I am sorry to interrupt 
you but I want to make sure that the record understands and the 
people in the audience do that the people who would be involved 
in making decisions and responding in a terrorist attack, in 
this case agroterrorism attack, would be brought together with 
this computer simulation and they would have real-time 
incidents they have to react to and it would give them a chance 
to exercise who makes what decisions and how they make it and 
go back afterwards and see how they did. Is that pretty much 
it?
    Dr. Hoerr. That is exactly correct. It allows the people on 
the very front line to practice their decision-making activity 
and then to sit back and evaluate those decisions and see if 
they were the best decisions under the circumstances.
    Mr. Rogers. Um-hum. Now, I have seen this program modeled 
for other folks of terrorist attacks. I have not seen it for 
agro. Have you seen any of these programs prepared already or 
is this----
    Dr. Hoerr. I have not seen it prepared for agroterrorism. 
My contacts at the university assure me that it could be 
modified for agroterrorism.
    Mr. Rogers. Okay. I want to go back to what I was talking 
about a few minutes ago with who is in charge. You made 
reference to the fact that you thought USDA would be very 
responsive in the event the commissioner of agriculture or your 
office called on them. Do you believe that the commissioner of 
agriculture in Alabama or your office at the diagnostic lab 
would subordinate their responsibilities to DHS in the event of 
a terrorist attack, when it comes to directing actions?
    Dr. Hoerr. I don't think subordinating to DHS would be an 
issue if that was the federal plan.
    Mr. Rogers. But somebody is going to have to direct 
actions. Who is going to do what? And I am still trying to get 
in mind's eye clear whether it is going to be USDA, DHS or who, 
FDA?
    Dr. Hoerr. Yes, sir. My understanding of how that process 
would work is if we had an incident in our state, our state 
people would be the first responders, the USDA would be called 
in for containment of that agricultural event and after that, 
certainly the commissioner of agriculture could call who he 
thought was appropriate for assistance. And we also, of course, 
have a large task force within the state. It has been working 
with the group out of UAB to plan for such events. I am sure 
they spill over into the public health area and beyond.
    Mr. Rogers. I do want to talk with you in our next series 
of questions about Avian Flu but I want to stay on this for 
just a few minutes, this organizational stuff. Dr. McGinn, you 
mentioned that you currently were an office of one but I 
thought you said earlier in your prepared statement that you 
had three veterinarians hired since you came on board.
    Dr. McGinn. Three veterinarians within the Office of Health 
Affairs. We have one veterinarian within the National 
Biosurveillance Integration System and then about a month ago, 
we hired another veterinarian to run our Weapons of Mass 
Destruction and Biodefense area. But within the area of 
veterinary and agriculture security, I am an office of one.
    Mr. Rogers. Okay. Describe this organizational structure.
    Dr. McGinn. Gladly. Within the Office of Health Affairs, we 
have an acting assistant secretary who directly reports up to 
the secretary. That is Dr. Jeff Rundy, who is also our chief 
medical officer. We have three sections. The section that deals 
with Weapons of Mass Destruction and Biodefense, of which I am 
in that office is where the director of veterinarian and 
security. We also have a medical readiness section, which does 
the planning and the preparedness work and then we have what we 
call a section for component services. And that is a section 
that takes care of the health care needs of the Department of 
Homeland Security employees.
    Mr. Rogers. In looking at this Subcommittee, given our role 
in supervising management and oversight in particular, what 
would you recommend that we focus our energy on when it comes 
to drafting legislation, going forward, that would help you in 
the subject matter we are talking about here today? What is the 
one thing that you would ask us to focus our energies on and 
our attention?
    Dr. McGinn. Well, the secretary's goal, the last goal, was 
strengthening and unifying DHS' operations and management. That 
is one of the five----
    Mr. Rogers. How can we strengthen it? That is what I am 
asking.
    Dr. McGinn. Our office is about coordinating the 30 
different programs in the veterinary, food and agriculture 
areas. So what we are doing is managing to a better economy of 
resources within DHS. There are a small amount of resources 
devoted to veterinary, food and agriculture and we got to 
actually have the ability to manage those resources in a way 
that we get the best synergy and we get the best coordination 
from the different components within DHS. And in a like 
fashion, to work with the states and the other federal agencies 
and the private sector to do the same. So it is a management 
issue but it is also a motivational issue.
    Mr. Rogers. Okay, thank you.
    Mr. Carney. Thank you, Mr. Rogers. Dr. Hoerr, in your 
testimony, you describe how the density of farms and the 
interstate transport of livestock creates major challenges 
preventing the rapid spread of highly contagious disease. Could 
you elaborate on this please?
    Dr. Hoerr. Yes, sir. For example, in the State of Alabama, 
we have very nearly 4,000 poultry farms which would have 
anywhere from 30,000 to a quarter million birds per farm. Those 
poultry farms actually extend to our state borders and 
intermingle to some extent with poultry farms in Georgia, 
Tennessee, Mississippi and the Florida panhandle. So just the 
farm to farm contact can spill outside of the state. The 
density of those farms is also very high. When you get into 
Coleman County, Alabama, as our leading poultry state, it is a 
very high density of farms. Just practically every rural 
household has a couple of broiler houses. Significantly, 
Coleman County is also the state's highest cattle producing 
state. So cattle production and poultry production coexist very 
well together in Alabama. Which brings about another issue 
which is, what is a problem for the poultry industry also 
becomes a problem for the cattle industry. And so you can very 
quickly see that agriculture can be all in this together. It is 
not just a cattle problem, it is not just a poultry problem. 
Dairies, you can add that in also.
    Mr. Carney. How long would it take for a disease to spread 
from coast to coast do you think?
    Dr. Hoerr. I think the best example that would have is West 
Nile Virus. It started out on the East coast and I think within 
three years, three, four years maximum, it reached the West 
coast and there were cases that actually leap-frogged over the 
mountains because they rode there in a vehicle.
    Mr. Carney. Mr. Filson?
    Mr. Filson. I am privy to a study that was done here in 
Pennsylvania that looked at the Lancaster Livestock Market as a 
hub for introduction of a contagious disease. And if that were 
the case, if a disease were introduced at that center, the 
potential exists that there would be 17 states exposed in the 
first day and the entire nation within five days.
    Mr. Carney. Entire nation in five days?
    Mr. Filson. Yes, sir. Continental United States.
    Mr. Rogers. That would be what kind of contamination, I am 
sorry?
    Mr. Filson. An animal disease, a highly contagious animal 
disease using the Lancaster area as the hub for distribution. 
It is a significant market exchange.
    Mr. Carney. What were the factors involved in that spread?
    Mr. Filson. A significant number of interstate transport 
both bringing in and receiving and taking back. So we have 
animals coming in and going back. It is not a terminal market. 
Animals are exchanged and that creates a very high risk.
    Mr. Carney. Mr. McGinn? Dr. McGinn, you have your work cut 
out for you it sounds like. Would you be able to respond in 
five days?
    Dr. McGinn. For this type of scenario and other scenarios 
that we have worked on and discussed earlier, rapidly expanding 
into lots of states in a very short period in time. We are 
talking about having software that teaches people how to make 
decisions quicker. We don't have to have people that can make 
decisions quicker in one of these rapidly expanding biological 
or chemical incidences but we have also got to have policies 
that allow those decisions to be made. Whether we are talking 
about a surge in the ability to do diagnostics at different 
levels throughout the country, the ability to use vaccination, 
the ability to do tracing of infected animals or contaminated 
animals or infected product and contaminated product. All these 
sorts of policy issues and decisions have to be addressed 
before we get in an incident like this, it moves in just a few 
days to a few weeks across the country.
    Mr. Carney. No, I agree but we do not get to pick where 
those incidents occur.
    Dr. McGinn. Right.
    Mr. Carney. Doctor, yet, I hate to pick on you but you have 
some interesting answers here. What does HSPD-9 mean to the 
state and local governments?
    Dr. McGinn. It is a number of the different--there is about 
18 or 19 tasks, depending on how you count them, with an HSPD-
9. If you go through that and you can see there is certain ones 
that are very important directly to the states and local 
governments and others that are important indirectly. Two of 
them that really--or several of them that really just jump out 
at me that are very important to the state. One is this whole 
thing about coordinated planning. That is task number 15. Very 
important to actually have the kind of coordinated planning 
that you are referring to that we actually can move through one 
of these events very quickly. Number two.
    Mr. Carney. Why is that not task number one?
    Dr. McGinn. It is just the way it is written. In the 
document, it is not 15 in terms of priority. It is just in the 
way the tasks----
    Mr. Carney. 15 things to do?
    Dr. McGinn. Yeah. They are just listed through and they are 
arranged in five different pillars so it is not meant in a 
priority. It is just the line within the document that has that 
particular task.
    Mr. Carney. I think I would kind of put it as a priority 
myself.
    Dr. McGinn. Right. They all are of equal high priority. It 
is just task number 15 within the list.
    Mr. Carney. Okay.
    Dr. McGinn. And then the line above there--maybe if I use 
the word line--line 14, which is above it talks about having 
response capability down to the local level to be able to 
respond to acts of terrorism and naturally-occurring disasters 
as well, such as floods. These are the kinds of things that 
from a state and local perspective would be very important. I 
will give you two more. One is vulnerability assessments. Being 
able to do these assessments down at the state and local level 
within the production units and the processing units. That is 
one of the key things that they say within HSPD-9, do 
vulnerability assessments. Come up with mitigating strategies 
is another one that is very important, to be actually able to 
mitigate a situation. Another one is information sharing with 
the private sector. The private sector wants to know, not only 
who is in charge but who to contact. That is part of why I put 
together this contact sheet of who in the Department of 
Homeland Security is actually there to contact. One of the 
chief complaints or challenges I have is people say, we do not 
know what DHS does, we do not know who to contact. And so, 
obviously, one of my first challenges has been to put together 
what we do and then actually to put together who to contact. So 
those are maybe about four or five good examples of priorities 
that the state and local would be looking to within Homeland 
Security.
    Others that are somewhat related is research, education. We 
have heard a lot about the value of the Extension Service and 
the education university system within the educational systems 
and developing the kinds of training courses as we go forward.
    We got to have coordinated curriculums within Homeland 
Security-type training courses, whether we are talking food or 
animal and that is a challenge as we proliferate all these 
different training capabilities and we have a proliferation of 
research being able to get that in a much more coordinated 
managed fashion as we go forward.
    Mr. Carney. Mr. Filson, do you care to comment?
    Mr. Filson. I agree. I think the focus needs to be across 
agencies rather than within agencies. I think the effort 
Homeland Security is doing is significant, however there is 
still certain challenges that need to be addressed. 
Communication, the sharing of vital information and maybe even 
some information that may not be considered vital to keep all 
the players informed equally as they possibly prepare to 
respond. I think the effort, to drive it more local, either at 
the state or at the county or at the industry or at the 
producer level, is admirable and very much one of the needed 
area that needs to focus. I think there is some possibilities 
that Homeland Security could look at existing networks and 
existing resources and encourage or support what already exists 
to extend some of the responsibilities of Homeland Security or 
delegate that to other agencies. As long as the work gets done, 
does it really matter who takes credit that it is done. So 
rather than recreate new ways of doing something that is 
already being done, let us look at the resources that may 
already be present and possibly add additional support there.
    Mr. Carney. At the risk of being naive here, is that being 
done?
    Mr. Filson. I think to a certain degree it is but I think 
it could be enhanced.
    Mr. Carney. Good. My time is up. Mr. Rogers.
    Mr. Rogers. Mr. Filson, in your view, how capable are local 
health systems in Pennsylvania, including emergency rooms, 
clinics and medical professionals of responding to a pandemic 
outbreak of Avian Flu?
    Mr. Filson. By pandemic I am assuming that you are talking 
that Avian Flu would be a human disease?
    Mr. Rogers. Yes, sir.
    Mr. Filson. I think almost all the healthcare agencies are 
at almost their full capacity and a pandemic would very rapidly 
call them beyond their capability of responding. There are 
mutual aide agreements within the healthcare industry but if 
you look at the capability of each individual healthcare 
facility, when we talk about the potential for a pandemic, they 
all very rapidly would exceed their capability of being able to 
respond at the current facility. Many of those healthcare 
facilities are looking at alternative sites for care, tertiary 
care kinds of capability off site from the facility or 
delegating a particular wing of the unit for a particular kind 
of treatment. Those kinds of decisions, I think, are in line 
with making sure that they can respond as well as they can. I 
think all are very much in agreement that if a pandemic would 
strike, their capability would soon be surpassed.
    Mr. Rogers. Dr. Hoerr, you are recognized as one of the 
world's leading experts on this. What do you think about the 
vulnerability of our nation on this subject, again please?
    Dr. Hoerr. Well, I think that we have made giant progress 
in our detection and surveillance capability. The National 
Animal Health Laboratory Network has been a good program. Our 
laboratory is active in that. We are testing water foul, 
commercial poultry. We are testing backyard poultry and the net 
is cast wide and this includes active surveillance, going out 
to places where backyard poultry are on the weekends and swap 
meets and so forth. I think the Public Health Group is very 
much aware of this concern and has done some good exercising in 
this regard. My concern, and this comes up in the GAO report 
that has been referenced several times today, is are we going 
to have adequate protection for the agricultural first 
responders who are going to have to be the people that deal 
with an AI outbreak within hours, minutes preferably. This 
includes people in diagnostic labs, people that need to be onto 
the farms to do the sampling.
    Mr. Rogers. What is the answer to that question?
    Dr. Hoerr. The answer is when we try to resolve this in 
Alabama and try and find out where is the antiviral medication 
and how quickly could we have it, the answer was very slow in 
coming. We didn't have the answer to that and we tried to work 
with our public health people and you quickly get mired down in 
pharmacy regulations and types of things like that. But that 
has to be worked out and ready to go in an instant. Should be--
--
    Mr. Rogers. And how would you recommend that we do that?
    Dr. Hoerr. I think we need centers of these drugs available 
in every state that has significant poultry, that there be 
people authorized to dispense these compounds to first 
responders when they go on the farm and that cannot wait. That 
has to be already out there ahead of time. And there seems to 
be a question about who can authorize that and how much can 
they get to the situation in a hurry. Because it is not just an 
agricultural event. It is a public health event and it can 
begin with the first responders.
    Mr. Rogers. My recollection is that a couple of years ago 
the President put a large sum of money aside for the vaccines 
to be distributed. To your knowledge, that has not happened? I 
know a lot of that money was utilized for Katrina and for the 
war. But has there been any stockpiling of this vaccine that 
you are aware of?
    Dr. Hoerr. I cannot comment on stockpiling of vaccines. My 
concern is about antiviral drugs, medications that would 
protect a person getting exposed to the virus in a chicken 
house.
    Mr. Rogers. I see. Tell me, I read in your prepared 
testimony--I know you just summarized it but you talked about 
the capability of us treating eggs before the poultry is 
hatched----
    Dr. Hoerr. Yes, sir.
    Mr. Rogers. --and doing that mechanically. Could you tell 
us what that is, what kind of vaccine?
    Dr. Hoerr. The current Avian Influenza vaccines are what is 
called an inactivated product. It is a virus grown in actually 
an embryonated chicken egg and then the virus is inactivated 
and it has to be injected by hand into each chicken egg. In 
Alabama, we produce 20 million chickens a week. Next door in 
Georgia, 25 million a week. You cannot inject that many 
chickens by hand and protect an industry. A new vaccine has 
been developed by Dr. Torro [phonetic] at Auburn University in 
collaboration with the USDA scientists that allows us to 
tailor-make a vaccine very quickly by taking a gene from an 
emerging influenza virus, splicing it into a virus that has no 
effect on the chickens and no effect on humans, so the 
influenza virus is not multiplying but it vaccinates or 
immunizing the chickens to influenza. This can be applied 
robotically to the chicken eggs at 18 days of incubation and 
then the baby chick hatches at 21 days of incubation and it is 
has already started its immunity response to influenza. It is a 
significant breakthrough.
    Mr. Rogers. Okay, thank you. I see my time is up.
    Mr. Carney. Thank you, Mr. Rogers. Dr. Hoerr, I kind of 
want to go back to the other sobering comment that Mr. Filson 
made. How long would it take to stop, to contain an outbreak, 
of something to the nature that Mr. Filson described? Do you 
have an idea on that?
    Dr. Hoerr. Of a single point introduction?
    Mr. Carney. Yeah.
    Dr. Hoerr. What was the scenario?
    Mr. Filson. Foot and Mouth Disease.
    Dr. Hoerr. Foot and mouth disease? Foot and Mouth Disease 
is a special concern. For example, all of the calves that are 
produced in Alabama, virtually all of these are trucked to feed 
lots in the western states. So they all leave on a truck and 
some of them come back into Alabama on a truck. So overnight, 
those diseases of cattle can go half way across the country in 
an 18-wheeler and I think that is the concern. Cattle that are 
congregated at auctions, are incubating a disease and it get 
expressed somewhere else and they contaminated the interstate 
highway system all along the way. So the response is going to 
have to be very quick and very focused and the traceability of 
those cattle is going to be key.
    Mr. Carney. Dr. McGinn, is there a plan with the Department 
of Transportation to track such things?
    Dr. McGinn. The issue that you are bringing up about 
transportation is very important because so far in this hearing 
today we have talked about the effects on agriculture. But the 
interdependency of the 14 different critical infrastructures is 
critical to be able to describe what is going to happen to 
transportation and describe what is going to happen to tourism, 
to health and on down the road in terms of critical 
infrastructure, the banking for instance. And the issue with 
transportation is one of the things that needs to be addressed 
in terms of a national plan. Currently USDA has a plan for 
which they would respond to animal disease such as described 
within this country, Foot and Mouth Disease outbreak. But a 
national plan that actually puts together all the different 
agencies in a coordinated fashion is one of the things that yet 
needs to be worked on.
    Mr. Carney. I have no further questions. Mr. Rogers?
    Mr. Rogers. This would be it for me. I just want to come 
back around on what we talked about earlier. Dr. Hoerr's 
reference to the ACATS program in his written testimony and 
what it could do. Listening to Mr. Filson talk about the need 
for us to push down into the local and state level this 
coordination activity, I would like to ask you Dr. McGinn, do 
you believe that a software program like ACATS, some version of 
it, would be something that you would like to see as a part of 
your planning, which I understand is the primary role that you 
have right now, planning and preparation, to better coordinate 
between the state and local and federal agencies and practice 
this decision-making? You talked about the vulnerability 
assessments, mitigating strategy and information sharing. It 
seems to me the only way you are ever going to get those 
objectives is to go through some sort of simulation.
    Dr. McGinn. Right.
    Mr. Rogers. Do you believe that is worth pursuing as far as 
policy?
    Dr. McGinn. We have just recently, in May of this year, 
released our National Infrastructure Protection Plan. That plan 
is actually a way which the industries, the governments, get 
together in a method to protect this critical infrastructure. 
We have a GCC, Government Coordinating Council, and a Sector 
Coordinating Council. In this way the governments are supposed 
to be able to--the Government Coordinating Council work 
together, as well as the different aspects of the sectors 
including transportation would work together.
    Mr. Rogers. Do you all have exercises that you go through 
with people to----
    Dr. McGinn. Well, we do. We are exercising that sort of 
arrangement every year and then that information is 
disseminated throughout the states. This issue that he raised 
about being able to make decisions quick, in a more timely 
manner and in a more accurate manner, is a critical component 
of a biological incident, particularly of highly contagious 
diseases we are describing. So the ability to make those sorts 
of decisions rapidly and accurately will be very helpful in the 
process of getting us better prepared. And again, it comes back 
to this whole issue of being able to mitigate a response. You 
asked how long it takes. The number of scenarios that we dealt 
with showed these sorts of intentional introductions could last 
180 days, 300 days and even long. So the challenge you have by 
utilizing this sort of attack technologies is how to make 
decisions sooner and reduce the length of the incident and also 
the pain and suffering, loss of confidence in the government 
and things like that occur as an incident continues on.
    Mr. Rogers. Well, this technology is available and it is 
very sophisticated. You can take a town like this and literally 
see it on the computer, drive down the streets and see the 
exact buildings that you would see if you drove down those 
streets. I would like to see your office try to take it and 
apply it to agroterrorism-type circumstance and see us--try to 
integrate these local officials with the state and federal 
folks so that we can do the vulnerability assessments that we 
need and be able to talk intelligently about it. So I hope that 
will be one of the goals that you will pursue. And that is all 
the questions I got. Thank you all for your testimony.
    Dr. McGinn. We have a responsibility to actually do a Foot 
and Mouth exercising capability within our Office of Health 
Affairs. So this would be an excellent tool for us to look at 
as well.
    Mr. Rogers. Thank you, great.
    Mr. Carney. Well, Dr. McGinn, a couple of requests. One, if 
you could please provide an org chart of your particular 
agency, your particular organization, and who is in the 
particular slots and those that are unfilled, you know, just 
say unfilled.
    Dr. McGinn. Gladly and I will get that to you today.
    Mr. Carney. All right. That would be great. I appreciate 
that. And I wanted to thank you all for coming over today, 
coming to Tunkhannock in Northeast Pennsylvania to see a 
beautiful part of the country certainly. I want to thank the 
audience for showing up and listening to this. I think that we 
have all seen that we are kind of in a place now where we are 
still--we will be in a reactive mode in case a bioterror or 
agroterror event occurs. It is my job, it is Mr. Rogers' job 
and our Committee's job, the Subcommittee's job, to make sure 
that we get to a place where we are proactive and not reactive 
to such things. So that is my charge to all of you and hearing 
no further business, the Committee stands adjourned.
    [Whereupon, at 3:05 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
